U. S. Department of Agriculture
 Office of Inspector General
        Audit Report


     OFFICE OF CIVIL RIGHTS
        MANAGEMENT OF
    EMPLOYMENT COMPLAINTS




                  Audit Report No.
                  60801- 3 - Hq
                  March 2000
Executive Summary
                                                     This report presents the results of our review of
Results in Brief                                     the effectiveness of the U.S. Department of
                                                     Agriculture's Office of Civil Rights (CR) in
            processing complaints of employment (EEO) discrimination filed against the
            Department. The Secretary of Agriculture requested this review to determine whether
            CR had established a reliable tracking system to ensure that employment complaints
            were being resolved on a fair and timely basis. CR's timeliness in handling employment
            complaints has been the subject of recent criticism. A January 1999 report from the
            General Accounting Office concluded that CR's record for processing these complaints
            was among the worst in the Federal Government.

            The Secretary also asked us to review the status of corrective actions that CR had
            implemented in response to our previous reports regarding CR’s processing of
            complaints of USDA program discrimination. We conducted our review of program
            complaints concurrently with this review of employment complaints and are reporting
            our results under separate covers. (For the results of our review of program complaints,
            see Audit Report No. 60801-4-Hq.)

            Concerning EEO complaints, the Secretary had asked us to establish the number of open
            cases within USDA and the number of complainants filing these cases. We found that
            CR's data base for tracking these complaints was unreliable; consequently, we had to
            perform a complete inventory of the file room to arrive at the data requested. Casefiles
            identified complaints pending a hearing before the Equal Employment Opportunity
            Commission (EEOC), as well as complaints that had been reopened because the
            complainants alleged that the agencies reneged on their settlement agreements. However,
            not all casefiles reflected where in the resolution process the cases stood, and we cannot
            be certain of the exact numbers of cases in each category. The following table reflects
            our best count of the open cases in the categories identified by the Secretary.1

                                                                   Complaints                Complainants
                Pending acceptance                                              764                           598
                Accepted and pending within USDA                                461                           377
                Pending before the EEOC                                         192                           156
                Indeterminate status                                            253                           189
                Reopened for noncompliance                                       61                            61
                TOTAL                                                         1,731                         1,185
                 NOTE: A complainant may have more than one case, with each case pending at a different phase of
                 the process. Therefore, the number of complainants by phase will not reconcile to the total number
                 of complainants.
               Table 1. The Number of Open Employment Complaints and Complainants.

1
  All sources were used to verify the status of complaints as of September 7, 1999. There are also, according to the
Office of the General Counsel, 74 USDA EEO cases pending some action before the courts, but because these cases
are no longer in the Department’s jurisdiction, it regards them as closed and does not track them.

USDA/OIG/A 60801-3-Hq                                                                                                 Page i
       Although actions can be taken to make CR’s case-tracking system more reliable, its
       condition is, we believe, only a symptom of the larger problem of CR’s operating
       environment. CR needs to design and implement a long-term plan to ensure that it can
       resolve complaints efficiently and with due care. The EEOC, which enforces all civil
       rights employment laws, established 270 days as the timeframe within which EEO
       complaints should be resolved (excluding an EEOC hearing), but CR has been unable to
       meet this timeframe. Complainants whose cases have been investigated must wait, on
       average, 474 days before the report of investigation is accepted; complainants whose
       cases are pending final agency decision must wait, on average, 668 days before the
       decision is approved. We attribute CR’s inefficiency to the agency’s constant
       reorganization and its practice of concentrating resources on the crisis of the moment
       rather than adhering to a long-term plan to which CR managers and staff could be held
       accountable.

       CR Inefficiency. We reviewed CR’s data governing processing time and determined that
       CR has made less progress than its reports indicate. CR had reported that between 1997
       and 1999, it had reduced by over a half the average time it takes to process an EEO
       complaint. Its data, which it presented in a table we have duplicated below, showed a
       significant reduction over the 2-year period.




            Table 2. Average Days to Process Employment Cases, Calculated by CR.

       We tested the data CR used to calculate these averages. We found that the figures were
       not representative of CR’s processing time because they included cases that had been
       settled by the agencies, not by CR. Also, the figures were based on the number of cases
       filed in each given year. This gives a statistical advantage to cases filed most recently
       and does not present a meaningful contrast between the years. Cases filed in 1999 would

USDA/OIG/A 60801-3-Hq                                                                   Page ii
            only count if they were completed in 1999; cases filed in 1997 would count if they were
            completed any time in 1997, 1998, or 1999, a period that would extend their average
            processing time. CR accepted 393 cases for processing in 1997; it accepted only 3 in
            1999 (before the chart was composed), and those 3 remained in CR’s preacceptance
            category for 222 days2 before they were closed due to litigation. A fairer indicator of
            CR’s efficiency is found in the age of those cases still being processed by CR. The
            following chart represents the average number of days that cases filed in each of the 3
            fiscal years had been open as of the date of CR’s chart.
                                          AV E R AG E AG E O F C AS E S S T IL L O P E N
                                                          A s o f A u g u s t 2, 1999.




                      FY99                157




                      FY98                                                     467




                      FY97                                                                             803




                             0     100     200      300           400           500      600   700   800     900
                                                                  Age in D ays


                   Table 3. Average Age of Open EEO Cases, Calculated by OIG.

            Although the numbers for these years still do not result in a meaningful comparison, the
            average age of open cases suggests that by the time the 1999 cases are closed in fiscal
            year 2000, CR’s average processing time for 1999 cases will have gotten longer.

            Questions of due care. Part of CR’s inefficiency is reflected in the quality of its reports
            of investigation and its final agency decisions. Although CR has had to return numerous
            reports of investigation to its contract investigators to complete work that was
            inadequate, many of the reports it accepted as complete contained substantial errors. In
            one case, CR accepted a report of investigation based on investigative work that CR later
            found it could not rely on to render a final agency decision. We also found final agency
            decisions that were based on inaccurate assumptions or faulty reasoning and did not
            always reflect the evidence compiled in the reports of investigation. One final decision
            was rendered on a complainant’s allegation of discrimination on the basis of sex, even
            though this allegation was not investigated or reported on. In our opinion, these final
            agency decisions do not show that CR exercised due care in judging the actions of
            USDA managers in matters affecting the complainants’ careers.




2
  CR’s 1999 average of 87 days includes another 60 cases that were received in 1999 but that were never accepted
and therefore never processed.

USDA/OIG/A 60801-3-Hq                                                                                              Page iii
           Short-term vs. long-term strategies. The untimeliness of CR’s complaint processing and
           the questionableness of some of its decisions are, as we noted earlier, a result of
           management practices that rely on short-term solutions rather than long-term plans to
           which they could hold their employees accountable. Although CR officially abandoned
           its original mission approach to processing complaints and implemented a more
           segmented approach, it has, over the past 3 years, practiced a style of management that
           employs neither approach. Employees are tasked to resolve the crisis of the moment,
           whether it be a backlog of new complaints, a backlog of unclosed cases, or a backlog of
           unwritten final decisions. This practice often requires employees to perform duties for
           which they are untrained and neglect duties for which they are nominally responsible,
           thereby creating the next backlog and the next crisis. This practice has nullified CR’s
           ability to hold its employees accountable for processing complaints efficiently and with
           due care.

           In 1997, for example, CR created a backlog of complaints pending acceptance when it
           took personnel from the acceptance desk and moved them to clear a backlog of old
           complaints. In early 1998, to handle the backlog of complaints pending acceptance, CR
           accepted them all, which in turn increased the volume of cases that CR was obliged to
           process. CR hired contractors to write final agency decisions, but according to CR
           personnel, almost every decision had to be rewritten by the CR staff, creating another
           backlog of cases pending acceptance. As of the date of our fieldwork, this backlog
           stands at 750. No key people in critical areas were held accountable to coordinate the
           complaint process and ensure that each complaint was handled with due care. Half of
           the employees in the Employment Complaints Division received outstanding
           performance appraisals for 1998. No division employee was placed on a performance
           improvement plan.

           Organizational and Leadership Changes. As noted above, constant reorganization of the
           Employment Complaints Division within CR3 and the large turnover of personnel
           throughout CR management’s chain of command have left CR without a long-term plan
           to meet its obligations to the Secretary, to EEOC, and to the complainants. Over the past
           3 years, the key management positions over USDA civil rights affairs, from the Assistant
           Secretary for Administration (ASA) to the chief of the Employee Complaints Division,
           have experienced persistent changes in leadership, as portrayed on the chart on the
           following page.




3
  Effective October 1999, a new division was created separating the employment complaints division from the
writers of final agency decisions. However, our review was conducted when these functions were under the one
employment complaints division.

USDA/OIG/A 60801-3-Hq                                                                              Page iv
                                    MANAGEMENT TURNOVER SINCE 1997

           ASA        ASA 1                        ASA 2                                       ASA 3                                        ASA 4                ASA 5


                      PACC & OO,
                      DIRECTORS                                                         CR DIRECTOR
    DIRECTORS                                         CR DIRECTOR 2                                                                 CR DIRECTOR 4
                              a                                                               3
                          1


       DEPUTY
 DIRECTOR FOR                                 DEPUTY DIRECTOR 1                         DEPUTY DIRECTOR 2                                 DEPUTY DIRECTOR 3
  EMPLOYMENT


                                                                                                                                                              CHIEF 3
  EMPLOYMENT
                                                                                                                                                          b
   COMPLAINTS                                     CHIEF 1                                                            CHIEF 2
 DIVISION CHIEF
                                                                                                                                                                        C
                                                                                                                                                              CHIEF 4
                                          7




                                                                                           8




                                                                                                                                               9
                              7




                                                                              8




                                                                                                                                9
                                                                7




                                                                                                                8




                                                                                                                                                                  9
                                                   7




                                                                                                    8




                                                                                                                                                     9
                                       r-9




                                                                                        r-9




                                                                                                                                            r-9
                           n-9




                                                                           n-9




                                                                                                                             n-9
                                                              t-9




                                                                                                               t-9




                                                                                                                                                                 t-9
                                                  l-9




                                                                                                   l-9




                                                                                                                                                    l-9
                                                             Oc




                                                                                                              Oc




                                                                                                                                                                Oc
                                     Ap




                                                                                      Ap




                                                                                                                                          Ap
                                                 Ju




                                                                                                  Ju




                                                                                                                                                    Ju
                         Ja




                                                                         Ja




                                                                                                                           Ja
                  a
                      PACC handled all policy and compliance activities; OO, handled all EEO and Program Complaints prior to the consolidation of CR.
                  b
                      Deputy Director, Acting
                  c
                      Employment Adjudication Division was formed in October, 1999, now 2 Division Chiefs for Employment.
                      Vacant

Table 4. Stratified Depiction of the Changes in CR Management’s Chain of Command Since 1997.

                  Each change in management has brought a new focus and a different emphasis within
                  CR. Also, each change in personnel assignment has affected the efficiency of the
                  process. Because CR employees are often new to a job or only responsible for a
                  segment of the complaints process, no one individual within CR can answer all
                  questions about a complaint when contacted by USDA agencies or by the
                  complainants. One agency civil rights official called four different people within CR
                  before finding the knowledgeable party.

                  CR’s case-tracking system and file room. CR’s case-tracking system and file room have
                  both suffered from CR’s short-term strategies. No one has been held accountable for the
                  unreliability of the data base and for the chaos of the casefiles. Although the case-
                  tracking system could be effective, CR employees were not using it according to its
                  potential. They did not update it in a timely manner, and they did not always reconcile
                  its data with other USDA agencies. We found 133 complaints listed by the agencies but
                  not by CR, and another 344 complaints listed by CR but not by the agencies.

                  The casefiles that support CR's data base also cannot be wholly relied upon. Our review
                  found CR’s file room in chaos. Casefiles contained information on cases that were not
                  relevant to the file; documents in the files were loose and in no particular order; and 399
                  files were placed in the "open" section of the file room, even though the cases were
                  closed. As of the end of our fieldwork, the file room clerk could not locate 18 of the
                  open complaint casefiles.




USDA/OIG/A 60801-3-Hq                                                                                                                                          Page v
       CR's current case-tracking system could perform more efficiently if CR used it to its
       potential, but it is an old system and not as user-friendly as more current software. It
       also allows access by all employees without identifying the employee making changes
       to the file. At the Secretary’s request, we considered the availability of other tracking
       systems, but we did not encounter any that could be installed as readily as the
       Secretary had hoped. CR is planning to convert to a newer system that will provide
       better case management as well as an audit trail. However, if training is insufficient,
       this new system will quickly become inaccurate itself.

       Interdepartmental relations. Although CR and the Department agencies share a
       responsibility to resolve employment complaints, they do not function as partners in
       the resolution process. Agencies have complained of difficulty in contacting CR staff
       to obtain information on a complaint or locate case documents that CR was supposed
       to forward to the agencies. The CR director’s monthly meetings with agencies leave
       issues unresolved, and CR’s report of complaints status seldom reflects agency updates
       for settlements and other closures. CR does not reconcile its case-tracking system with
       agency data. Frustrated with an apparent closed-door policy, agencies have given up
       trying to reconcile their case numbers with CR or even seeking EEO guidance from
       CR. One of CR’s primary missions is to inform agency civil rights staffs of EEO
       policies and train them on civil rights matters, but it has not done this. Although the
       Supreme Court has recently handed down three important decisions on harassment, no
       guidance has been issued from CR on these decisions.

       We also noted that CR has been processing EEO complaints made against CR
       management. There are no separate procedures in place for processing complaints from
       CR employees; consequently, these employees may not receive due process. They are
       not afforded an unbiased, third-party review and may be subjected to acts of
       discrimination that are allowed to continue because the officials responsible for signing
       decisions have a vested interest in the complaint.


                                        Although all the recommendations we offer
Key Recommendations                     throughout this report are issue-specific, some, if
                                        implemented, will have larger consequences and
       can benefit the Department in broader ways than as a corrective only to the issue to
       which we assigned them.        We note five such recommendations. We are
       recommending that the Secretary—

          !"Direct CR and the civil rights directors of USDA agencies to establish and
            develop ways to enhance the working relationship between CR and the agencies’
            civil rights staffs.




USDA/OIG/A 60801-3-Hq                                                                   Page vi
          !"Develop procedures for processing CR in-house complaints that eliminates
            potential conflicts of interest and provides unbiased due care,

          !"Develop a management plan to address the areas of effective leadership,
            changing organizational culture, customer focus, process improvement and
            reengineering, with emphasis on long-term planning. This plan should include
            the development of a workforce planning strategy that would require job
            classifiers to evaluate the Employment Complaints Division’s operations and
            ascertain the type of positions and grade levels needed to process employee
            complaints, and that would include an appraisal system that establishes
            performance standards for use in both appraisals and in personnel selection, and

          !"Direct CR to expedite the implementation of its new employment complaint
            tracking system containing advanced edit checks to ensure the integrity of the
            data and providing workflow functions for casefile management.

       For more immediate, issue-specific correctives, we are recommending that CR maintain
       the integrity of the data in its data base by running routine searches for anomalies to
       identify suspect data, and by reconciling its data with that of USDA agencies and the
       EEOC to ensure that all cases are accounted for. Most importantly, CR needs to find the
       18 missing casefiles to ensure that the complainants’ cases are receiving due care.

       CR also needs to provide full disclosure on the data and methodology used regarding
       civil rights activities, and it needs to perform a document-by-document sweep of its EEO
       casefiles to ensure that all documentation is accounted for.


                                         In its March 8, 2000, written response to the draft
Agency Response                          report, CR generally concurred with the findings.
                                         We have incorporated excerpts from CR’s response
       to the recommendations, along with our positions and the actions necessary to reach
       management decision on the recommendations. CR’s response is included in its entirety
       as exhibit E of the audit report.




USDA/OIG/A 60801-3-Hq                                                                 Page vii
TABLE OF CONTENTS


EXECUTIVE SUMMARY ............................................................................................. i



INTRODUCTION..................................................................................................................1

         BACKGROUND........................................................................................................1

         OBJECTIVES ...........................................................................................................3

         SCOPE......................................................................................................................4

         METHODOLOGY .....................................................................................................5


Chapter 1: CR Data Base and Data Analysis...................................................................7

    CR’s Systems To Track its Complaints Inventory Are Unreliable;
       Representations of CR Activity Do Not Reflect Actual Progress.......................7

         CR’s Data Base Is Not Supported by its Casefiles or by Records
         Maintained by USDA Agencies and EEOC .............................................................................8
            Recommendations.............................................................................................................14

         CR’s Representations of its Progress Do Not Reflect Actual
         Performance.............................................................................................................................17
             Recommendation ..............................................................................................................22

         Other Data Bases Exist, but CR Does Not Use Its Current
         Data Base Effectively..............................................................................................................22
            Recommendations.............................................................................................................25




USDA/OIG/A 60801-3-Hq                                                                                                                Page viii
TABLE OF CONTENTS


Chapter 2: EEO Complaint Processing .........................................................................28

    CR’s Management Practices Prevent CR From Processing Complaints
      With Due Care and From Resolving Them Within the Timeframes
      Established by EEOC............................................................................................28

         Conclusion No. 4.....................................................................................................................28
            Recommendations.............................................................................................................35

Chapter 3: Interdepartmental Relations.........................................................................37

     CR’s Relations With Other USDA Agencies Have Deteriorated............................37

         Complaints Processing Requires a Partnership Between CR and Other
         USDA Agencies ......................................................................................................................37
           Recommendations.............................................................................................................40

         CR Needs to Provide Better Guidance to the Department on Civil Rights
         Policies ....................................................................................................................................41
             Recommendations.............................................................................................................42

Chapter 4: Conflicts of Interest.......................................................................................44

    Separate Controls Are Needed For EEO Complaints Made
    Against CR Management...........................................................................................44

         Conclusion No. 7.....................................................................................................................44
            Recommendation ..............................................................................................................46


EXHIBITS
         A – Secretary’s Request Letter............................................................................47

         B – USDA Agency Civil Rights Staff Interviewed...............................................49

         C – Summary of Missing Casefiles .....................................................................50


USDA/OIG/A 60801-3-Hq                                                                                                                      Page ix
TABLE OF CONTENTS


     D – Summary of Statistical Projections ..............................................................51

     E – CR’s Written Response to the Draft Report.................................................52




USDA/OIG/A 60801-3-Hq                                                                              Page x
Introduction
                                                     The U.S. Department of Agriculture's Office of
Background                                           Civil Rights (CR) is responsible for resolving
                                                     all complaints of discrimination that are made
            against the Department. These complaints generally fall into two main categories:
            complaints of discrimination in the hiring, promoting, or retaining of employees (equal
            employment opportunity (EEO) complaints), and complaints of discrimination in the
            award or distribution of Federal program benefits (program complaints). Processing
            procedures for EEO complaints differ from those of program complaints; consequently
            EEO complaints are tracked by CR on a separate tracking system.

            Individuals seeking employment with the Federal Government, or promotion within it,
            are protected against discrimination by several statutes. Title VII of the Civil Rights Act
            of 1964 makes it illegal to discriminate in employment on the basis of race, color,
            religion, sex, or national origin; the American's with Disabilities Act extends these
            protections to disabled persons; and the Age Discrimination in Employment Act further
            protects job-seekers and job-holders on the basis of age.4

            Responsibility for employee complaints has changed hands several times at the
            Department level. In 1993, the Office of Advocacy and Enterprise handled employee
            complaints. By 1994, the responsibility was transferred to the Office of Civil Rights
            Enforcement (CRE). Under CRE, six regional service centers were established that
            provided counseling and presided over dispute resolution boards. The responsibility for
            employee complaints was again transferred in 1995 to the Office of Operations (OO) and
            Policy Analysis and Coordination Center (PACC). As a result of the report issued by the
            Civil Rights Action Team (CRAT) in 1997, the Secretary of Agriculture gave full
            responsibility to the Assistant Secretary of Administration. The assistant secretary
            delegated this authority to CR. This is where we stand today.

            CR's Employment Complaints Division (ECD) processes all EEO complaints.
            Timeframes for processing are prescribed by the Equal Employment Opportunity
            Commission (EEOC). Individuals who believe they were discriminated against must
            first contact an EEO counselor within 45 days of the alleged discrimination to attempt to
            informally resolve the complaint. If this effort is unsuccessful, complainants are given
            notice of their right to file a formal complaint and have another 15 days to file their
            complaint with CR. From the date the complaint is filed with it, CR has 180 days to
            investigate the complaint and issue a report. The complainant then has another 30 days
            to decide whether to accept a final agency decision (FAD) based on the investigation or
            to request a hearing before an administrative judge, whose findings can affect the FAD.
            This entire process may take between 270 days and 450 days, depending on whether the
4
  Other statutes include the Equal Pay Act, the Pregnancy Discrimination Act, the Rehabilitation Act of 1973, the Civil
Rights Act of 1991, and the Civil Service Reform Act.

USDA/OIG/A 60801-3-Hq                                                                                           Page 1
             complainant requests a hearing. However, the complainant also has the right to appeal
             the FAD, in which case the process may exceed 450 days. (See figure 1.)


                                      Accept
                         Does                                              Does
Co mplaint              agenc y                 Co mplaint             c omplainant
  Filed                ac c ept or             Inv es tigated             reques t
                                                                         hearing?
                                                                                                        No
                       dis mis s ?


                                                                                      Yes
                                                                           EEOC
                                                                           hearing


                                     Dismiss                                                Final A genc y
                                                                                              Dec is ion




  Note: At any point in the complaint process, a complainant has the                            Pos s ible
                                                                                              c omplainant
  right to settle or withdraw their complaint.                                                   appeal




Figure 1: Process for Federal Employment Complaints

             CR may reject a complaint if a complainant: 1) fails to state a claim, 2) fails to comply
             with applicable time limits or has not brought the matter to the attention of a counselor,
             3) files a civil action in a United States District Court, 4) has raised the compliant in a
             negotiated grievance procedure, 5) files a moot complaint or a complaint based on a
             proposed personnel action, 6) cannot be located after reasonable efforts, 7) fails to
             provide adequate information to proceed with the complaint, and 8) fails within 30 days
             to accept an offer from the agency of full relief. If CR accepts an EEO complaint, it
             refers it to one of several private civil rights investigators it retains under contract to
             complete an investigation. CR has used as many as 15 contract investigation firms to
             investigate EEO complaints; beginning in 1999, CR limited its contract work to only 3
             firms.

             The EEO complaints investigator assembles the facts and gathers information to support
             a prima facie case. Such a case demonstrates three elements: (1) that the complainant is
             a member of a protected group or class; (2) that the action taken by the USDA agency
             was adverse toward the complainant; and (3) that there is some inference that the action
             was taken because of the complainant's membership in the protected group or class. An
             inference may be drawn in several ways: statistical data may show the agency's actions
             have been consistently adverse toward the complainant's group or class; sources may
             indicate the agency official named by the complainant has made disparaging remarks
             about the complainant's group or class; or documents may show that the agency's

 USDA/OIG/A 60801-3-Hq                                                                                       Page 2
       treatment of the complainant was different from its treatment of individuals who are not
       members of the complainant's group or class.

       CR uses a complaint tracking system, called EEOMAS, to identify the status of each
       complaint—that is, where in the resolution process the complaint stands, whether under
       investigation, pending a hearing at EEOC, or at some other point in the process. CR’s
       presentation of its progress in resolving EEO complaints is based on EEOMAS data.

       It should be noted that the EEOC regulations governing the procedures for Federal
       employee discrimination complaints changed effective November 9, 1999. We did not
       conduct any testing or consider these changes during our evaluation, as it did not affect
       the status of the September 7, 1999, complaints we reviewed.

       This review constitutes our seventh in a series of ongoing evaluations of CR and the first
       evaluation of CR’s employment complaints process. Concurrent with this review, we
       conducted a followup review (Audit Report No. 60801-4-Hq) of our prior six
       evaluations of CR’s program complaints process. We began our evaluations in
       December 1996, at the direction of the Secretary, who had raised concerns about the
       performance of the Department's civil rights program complaint system.

                                                 Our objectives were defined by the Secretary in
Objectives                                       his letter to us dated August 24, 1999.
                                                 Generally, the Secretary asked us to determine
       if CR has established a reliable tracking system for EEO complaints to ensure that they
       are being resolved on a fair and timely basis. His letter requested specifically that we
       determine the following.

          1. The number of EEO complaints, in the following categories: (a) complaints
             pending acceptance, (b) complaints accepted as formal and pending within
             USDA, (c) complaints pending before the EEOC, and (d) complaints pending in
             the courts.

          2. The number of complainants, by the same categories listed in Number 1 above.

          3. Whether all complaint files can be located.

       The Secretary also asked us to identify whether there were adequate case-tracking
       systems available as "off-the-shelf" software and how long it would take to bring such a
       system on-line, if the most expeditious procurement approach were used.

       We expanded on the Secretary’s request by conducting reviews to determine the quality
       of CR’s final agency decisions and the affect of the working environment on CR’s
       operations. See exhibit A for a copy of the Secretary’s letter.


USDA/OIG/A 60801-3-Hq                                                                    Page 3
                                              We performed our work at the USDA Office of
Scope                                         Civil Rights in Washington D.C. Our review
                                              primarily covered operations from fiscal year
        1997 to September 7, 1999. The fieldwork was conducted between September 1999 and
        December 1999.

        To accomplish the Secretary’s request, we interviewed the staff, managers and former
        employees of the ECD as well as other CR officials in order to obtain information on the
        structure and environment of the division. In addition, we interviewed staff personnel at
        the Office of Human Resources concerning any personnel issues applicable to civil
        rights.

        We interviewed all 18 USDA agency civil rights staffs and an official at the Office of the
        General Counsel to discuss employment complaint procedures and obtain any concerns
        regarding the complaint process. (See exhibit B for a list of agency directors
        interviewed.) Prior to our interview, a letter was distributed to the agency administrators
        asking them to provide us with information on all open employee complaints. This
        information was compared with those complaint cases at CR.

        We reviewed the Equal Employment Opportunity Monitoring and Analysis System
        (EEOMAS), which allows CR to track and monitor all employee complaint cases for the
        Department and provide their current status. Early in our review, we found that CR’s
        data base could not be relied upon to provide the correct status of the cases. Therefore,
        we inventoried 2,129 employee complaint casefiles at the Office of Civil Rights, and
        obtained complaint information from other USDA agencies. We also requested from
        EEOC a list of complaint cases currently awaiting a hearing before an administrative
        judge, and cases awaiting an EEOC decision from an appeal. As a result of this review,
        we identified 1,731 open cases as of September 7, 1999.

        The table on the following page shows our reconciliation of the cases we inventoried
        with the cases we identified as open, closed, missing, and of undetermined status.




USDA/OIG/A 60801-3-Hq                                                                      Page 4
                      Reconciliation of Casefiles Inventoried by OIG
              Total Casefiles Inventoried by OIG                     2,129
                - Closed files (per casefile documentation) 263
                - Closed files (per EEOMAS)                 136
                - Undetermined Status                        17        416
              Total Open Casefiles reviewed                          1,713
                + Missing Open Casefiles (per EEOMAS
                   data--Unable to review)                              18
              Total Open Casefiles, per OIG                          1,731
           Table 5. Number of Casefiles Inventoried and Number Actually Open, per OIG.

       We also performed a statistical sample of 88 cases from all 1,823 cases that were listed
       in CR’s data base as having been closed either by a FAD or settlement agreement
       between October 1, 1996, and September 7, 1999. (See Exhibit D.) We used this sample
       to test the adequacy of CR’s complaint processing.

       The audit was conducted in accordance with Government Auditing Standards.



                                              To accomplish our objectives, we interviewed
Methodology                                   CR officials and staff, agency civil rights
                                              directors, and organizations outside the
       Department. We also performed the following tasks:

          •    We conducted a review of 88 statistically sampled reports of investigations from
               a universe of 1,823 cases that had been closed by a FAD or a settlement
               agreement between October 1, 1996, and September 7, 1999. When available,
               we also reviewed the FAD relating to those 88 reports of investigations,

          •    We reconciled CR’s data base with case files, agency files, and EEOC,

          •    We analyzed CR’s data base used to track employee complaints,

          •    We reviewed CR policies and procedures used to process employment
               discrimination complaints,

          •    We reviewed the laws and Department regulations applicable to the employment
               complaint process,

          •    We performed a physical inventory of all open employee complaint case files at
               CR,



USDA/OIG/A 60801-3-Hq                                                                    Page 5
          •   We interviewed an official with the Office of the General Counsel (OGC) to
              determine OGC’s role in the employee civil rights complaints resolution process,

          •   We contacted all of the Department’s agency administrators to determine the
              number of open employee civil rights complaints in each agency and compared
              these figures to CR’s data base. We also interviewed agency civil rights staffs to
              obtain an understanding of their role in the complaint process and to document
              their concerns and comments relating to that process.

          •   We conducted interviews with civil rights officials at the Department of Defense,
              Office of Army, Department of Treasury, Department of Housing and Urban
              Development, and the White House employment complaints director to
              determine what tracking software they use. We also contacted two private
              software vendors to determine whether off-the-shelf employment complaint
              tracking software was available,

          •   We analyzed the EEOMAS data base as of September 7 and September 30,
              1999, to determine whether data had been entered correctly and timely, and

          •   We reviewed cases within the complaint process to determine if the complaints
              had been accepted in a timely manner.




USDA/OIG/A 60801-3-Hq                                                                   Page 6
Chapter 1: CR Data Base and Data Analysis

CR’s Systems To Track its Complaint Inventory Are
Unreliable; Representations of CR Activity Do Not Reflect
Actual Progress

        In response to the Secretary’s request, we tried to determine the status of all open EEO
        complaints, whether under investigation, pending an EEOC hearing, or undergoing some
        other form of processing. We found that CR’s data base and physical casefiles are not
        being properly used as management tools and cannot be relied upon to reflect where each
        case stands in the process of complaint resolution. The ECD’s data base contains
        inaccuracies, while its physical casefiles are in chaos. As a result, the Director of CR has
        reported inaccurate information to the Secretary and to Congress, and CR employees are
        unable to effectively manage their caseloads.

        Because we could not rely on CR’s data base to arrive at an accurate count of open cases
        and their status, we performed a complete physical inventory of CR’s casefiles and
        obtained information from CR, from the agencies, and from EEOC. None of the
        numbers reconciled, and we cannot say with certainty how many cases exist and what the
        exact status of each case is. The following table shows the status of cases as of
        September 7, 1999, with our best determination using all available sources of the actual
        status of cases as of that date.

                                                                   Complaints       Complainants
           Number of open cases*                                         1,731               1,185
                    Pending acceptance                                     764                 598
                    Accepted
                              Under investigation                          231                 190
                              Pending complainant election                   65                  52
                              Pending agency decision                      165                 135
                              Pending before the EEOC                      192                 156
                              Indeterminate status                         253                 189
                              Reopened for noncompliance                     61                  61
           *A complainant may have a case pending at more than one phase of the process.
           Therefore, the number of complainants within the phases of complaint processing will not
           reconcile to the total number of complainants.
          Table 6. Number of Employment Complaints and Complainants Identified by OIG.

        The Secretary also asked for the number of open complaints pending before the courts.
        Such cases are beyond USDA’s jurisdiction and are closed by CR once the district courts
        assume responsibility for them; consequently, their status is not tracked by USDA.
        However, we obtained information from the Office of the General Counsel that showed
        there are 94 civil rights complaints against USDA pending in Federal district courts, 74
        of which involve employment discrimination.

USDA/OIG/A 60801-3-Hq                                                                                 Page 7
       CR is in the process of replacing its current data base system with a new system that will
       allow interagency access. This will permit agencies to determine the status of their cases
       and will help them reconcile their caseloads with CR. We believe that if the new system
       is properly installed and properly used, with appropriate protections against unauthorized
       access, it should provide CR with a better management tool than the current system.


                                                  Employment complaint casefiles were in chaos
Conclusion No. 1
                                                  and did not always provide information to
CR’s Data Base Is Not Supported
                                                  support the processing classifications recorded
by its Case Files or by Records
                                                  in the data base. CR’s data base was also not
Maintained by USDA Agencies and
                                                  consistent with USDA agencies’ listings and
EEOC
                                                  EEOC’s records. CR did not properly manage
       its casefiles, did not always update its system in a timely manner, and did not routinely
       reconcile its complaint inventory with USDA agencies or with EEOC. There were 580
       differences between the status reported by EEOMAS and the status we determined using
       information from the casefiles, from the agencies, and from EEOC. While we can
       conclude with certainty that the data provided by CR to the Secretary is incorrect, we
       cannot conclude with certainty that the data we arrived at is wholly accurate.

       Casefiles in Chaos

       We knew from our evaluations of CR’s management of program complaints that CR had
       a history of problems with casefiles. Initially, for this review, we were going to test
       some casefile information and compare it with CR’s data base. This would allow us to
       determine whether the case did exist and where the complaint was in the process of
       resolution. Early in this process we recognized that with the number of discrepancies we
       identified, we would have to perform a complete physical inventory.

       The casefiles are the primary support for all of ECD’s decisions, as well as for the
       information maintained in the data base. We discovered, however, that ECD’s casefiles
       were not maintained with any degree of order. Many of the case documents were filed in
       folders that used tabs to divide each case into 16 discrete categories (e.g., EEO counselor
       report, formal complaint, acknowledgment letter, etc.), but the tabs were used only when
       each folder was first created. A copy of the formal complaint and the EEO counselor’s
       report were properly filed, but most of the remaining 14 tabs remained unused. For the
       most part, documents were just placed loosely in the folders without regard to
       chronology. As a result, we had to go through all documents in each file to ensure that
       we were apprised of the last action taken.

       For some casefiles, we could easily determine the status of the case; however, for other
       casefiles it was difficult, and for some it was impossible. In our review of casefiles, we
       found that documents were either improperly filed or missing and that the files

USDA/OIG/A 60801-3-Hq                                                                     Page 8
       themselves were disordered and sometimes difficult to locate. In at least 11 casefiles, we
       found documentation belonging to another complaint filed by the same complainant, and
       in 23 casefiles, we found documentation belonging to another complainant altogether.
       CR staff would have found this latter documentation only by accident. The
       complainants would have been denied all material relevant to their cases.

       CR had also changed its file numbering system without changing all numbers on its
       folders. CR originally numbered its complaints according to the day the complaint was
       received, but because this numbering system produced duplicate file numbers, CR began
       using EEOMAS to assign a unique number to each complaint. While EEOMAS could
       assign the numbers automatically, the file folders still needed to be renumbered
       manually. We discovered that some file numbers were not changed. During our
       physical inventory, we could not find 274 files, some of which we thought were missing
       because they still showed the old file numbers. It took ECD personnel over 2 months to
       locate these files, 18 of which were still missing by the end of our review (see Exhibit
       C). We were therefore unable to verify the status of these 18 complaints.

       Also during our physical inventory, we found 416 casefiles in the open section of the file
       room that we could not find listed on our September 7 listing of open complaints. Sixty-
       three of these 416 cases were nowhere to be found in EEOMAS.

       Poor storage of the casefiles made locating them difficult. The division file room
       operating procedures state that the outside tab of the casefile should show the
       complainant’s name and case number, allowing the cases to be filed alphabetically.
       However, files were not always filed alphabetically, and larger cases that extended to
       more than one folder were not labeled in succession (i.e., 1 of 2 and 2 of 2) to ensure
       that all folders were accounted for. The photographs on the following pages illustrate
       the condition of the file room and the haphazard way the file folders were kept.




USDA/OIG/A 60801-3-Hq                                                                    Page 9
             Figure 2. CR’s File Room, Showing Files Stacked in Borrowed Shopping Cart.




              Figure 3. CR’s File Room, Showing Boxed Files




USDA/OIG/A 60801-3-Hq                                                                     Page 10
                Figure 4. CR’s File Room, Showing Unfiled Casefiles.

       During our inventory, we also discovered that not all casefiles were maintained in a
       secure area. Some casefiles we inventoried were left unsecured in employees’ cubicles
       when they were absent. Several more casefiles relating to complaints that were awaiting
       a signature from the director were shelved out in the open and not subject to ECD’s
       normal file room checkout procedures.

       Because of the condition of CR’s file room and its casefiles, we cannot be certain that we
       have been apprised of all of CR’s complaints or their status in the complaints resolution
       process. Our best guess, based on our physical inventory, is that CR maintained a
       caseload, as of September 7, 1999, of 1,731 open cases.
                          Reconciliation of Casefiles Inventoried by OIG
                  Total Casefiles inventoried by OIG                              2,129
                    - Closed files (per casefile documentation)            263
                    - Closed files (per EEOMAS)                            136
                    - Undetermined Status                                    17     416
                  Total Open Casefiles inventoried                                1,713
                  + Missing Open Casefiles (Open per EEOMAS. Unable to review.)      18
                  Total Open Casefiles per OIG (See Table 6.)                     1,731
                 Table 7. Number of Casefiles Inventoried and Number Actually Open.

       CR’s Caseload Does Not Match USDA Agencies’ Records

       Each USDA agency maintains a list of all EEO complaints filed by its employees. In our
       attempt to validate CR’s data base, we obtained a listing of open complaints from the

USDA/OIG/A 60801-3-Hq                                                                     Page 11
       other USDA agencies. For nearly every agency in USDA, CR listed employment
       complaints that were not listed by the agencies, and the agencies listed employment
       complaints that were not listed by CR. This occurred largely because CR did not always
       update its data base when agencies reported that a complaint had been resolved at the
       agency level or when CR received a formal complaint filed by a complainant.
       Occasionally CR neglected to inform the agencies that a case was closed.

       We found 133 complaints that were listed by the agencies but not included in CR’s data
       base, and another 344 complaints that were listed by CR but not by the agencies. Of the
       133 complaints not listed by CR, 2 had been closed in the tracking system in error,
       leaving 2 complainants potentially without due process. Without a routine reconciliation
       of the complaints, the Department may spend contract funds unnecessarily to investigate
       cases that are closed, and risk closing cases that are in fact open and active.

       According to CR, division personnel try to update the data base within 5 days of
       receiving a new complaint. However, during our reconciliation, we found 55 complaints
       that had been filed between July and August 1999 but that did not appear on the
       September 7, 1999, listings. These complaints did appear on the September 30, 1999,
       listing.

       Agencies also complained that CR does not respond to their notifications that cases have
       been resolved at the agency level. We found 27 cases which the agency had settled with
       the complainant after the complainant had filed a formal complaint with CR, but CR did
       not have a record of the settlement and continued to process the case.

       We were eventually able to reconcile the information between CR and the agencies. As
       a result, CR needed to close 87 complaints that it listed as open on September 7, 1999,
       and reopen the 2 cases closed in its tracking system that it closed in error. We believe
       this demonstrates the need for CR to reconcile its data with the agencies at least monthly
       to ensure that information being reported is accurate and that all cases are accounted for.

       CR’s Caseload Does Not Match EEOC Records

       Due to the number of complaints reported at EEOC, we determined it was necessary to
       obtain EEOC’s records for reconciliation. We contacted EEOC to obtain a list of USDA
       employee complaints that were before the committee for hearings or appeals. An
       employee may request a hearing before EEOC under two different circumstances: after
       180 days have elapsed from the date the complainant filed the complaint, or after the
       complainant receives the report of investigation. When CR issues a final agency
       decision (FAD), the complaint is closed but the complainant is also informed that he or
       she can appeal the FAD before EEOC. We found discrepancies in both lists, as
       described in the following table:



USDA/OIG/A 60801-3-Hq                                                                    Page 12
                                              PER EEOC                PER CR
                          Hearings                204                    408
                          Appeals                 299                    215
                 Table 8. Discrepancies in Numbers of Cases Being Heard and Appealed
                  at EEOC.

       Hearings. In reconciling the hearing cases, we could not determine the status of 199 of
       CR’s 408 complaints because CR’s files indicated they were at EEOC, and EEOC
       records indicated they were not. (Because EEOC may consolidate complaints by the
       same complainant, the numbers need not be identical, but the names of individuals
       should match.) From EEOC’s data, we found 16 names of complainants pending a
       hearing as of September 7, 1999, which we could not find in CR’s data base (open or
       closed cases), and we found another 9 complaints pending hearings that had been closed
       in CR’s data base. Normally, CR does not close cases pending hearings at EEOC
       because the EEOC decision will result in CR having to take further action.

       Appeals. During our review of the appeals listed by EEOC, we identified USDA
       complaint numbers being assigned more than one EEOC case number. An EEOC
       official explained that these might be duplications or they might have occurred because
       complainants had more than one issue being heard independently. On the EEOC appeals
       list we identified seven complainants that we could not find in EEOMAS. Another 13
       cases listed on appeal at EEOC were shown in EEOMAS as still open. If EEOC’s
       information is correct, these cases should have been closed with FAD’s.

       Determination of Status

       We found a total of 580 differences between the status reported by EEOMAS and the
       status we determined using information from the casefiles, from the agencies, and from
       EEOC.

           !"There were 253 complaints whose status we could not determine. For most of
             these (199), we could not determine the status because EEOMAS and the
             casefiles showed that the complaints were at EEOC, but the information
             provided by EEOC did not reconcile with this. For the remaining cases, we
             could not determine the status because either we could not derive this
             information from the casefiles or we could not locate the casefiles.

           !"There were 99 complaints that were identified in EEOMAS with an error code
             but whose status we were able to determine.

           !"There were 186 cases that were further along in the process than indicated by
             EEOMAS. (See Conclusion No. 3.)


USDA/OIG/A 60801-3-Hq                                                                  Page 13
           !"There were 42 cases whose status as shown in the database was not supported
             by the casefiles. (See Conclusion No. 3.)

       Although CR issued Departmental Regulation 4300-7, Processing EEO Complaints, on
       March 3, 1999, and EEO Complaints Processing Procedures on September 9, neither of
       these include a requirement for a reconciliation to occur between the agencies or EEOC.
       Based on the results of our review, it is evident that the regulations need to include a
       reconciliation process.

       In her response, the CR director implies that OIG’s presence added to the confusion of
       the fileroom. The pictures we presented are representative of the condition of the
       fileroom throughout our 4 months of fieldwork. The chaotic nature of the fileroom was
       not the result of OIG staff being present. It is safe to say that the management of the
       fileroom was inadequate. An efficient fileroom would be able to accommodate auditors
       and all others who would need access to the files. The chaotic nature of the fileroom was
       caused by management neglect.

Recommendation 1

       Direct CR to locate the 18 missing casefiles.

       Agency Response:

       CR will locate any files that are missing or establish that the files are duplicative or do
       not exist within 30 days of receiving the list identifying those cases.

       OIG Position:

       The list provided as Exhibit C in the report will be updated to include the names. Based
       on the above response, we agree to reach management decision on this recommendation.

Recommendation 2

       Direct CR to review and determine the proper status of the 87 open complaints we
       identified as closed, and the 2 closed complaints we identified as open.

       Agency Response:

       CR will accomplish this within 30 days of receiving the list identifying those cases.




USDA/OIG/A 60801-3-Hq                                                                    Page 14
       OIG Position:

       Based on the above response, we agree to reach management decision on this
       recommendation.

Recommendation 3

       Direct CR to perform a document-by-document sweep of its employment complaints
       casefiles to ensure that all documentation is accounted for and that the documentation in
       the files reflects the status of each case.

       Agency Response:

       CR will perform a document review of the casefiles to account for all documents and
       verify the accuracy and consistency of the casefiles to the database. This will be
       accomplished by July 31, 2000.

       OIG Position:

       We concur with CR’s intent to complete this task by the provided date; however, CR’s
       response does not provide us with its plan on how this will be accomplished. CR’s
       response failed to include the director’s comments made during the exit conference on
       how it intended to organize its files, such as implementing a bar code system to facilitate
       proper filing of documents. To reach management decision, CR needs to provide us with
       its plan to accomplish the review and verify the accuracy and consistency of the casefiles
       to the data base.

Recommendation 4

       Direct CR to immediately reconcile its casefiles with those of the agencies. CR should
       make the appropriate changes to its tracking system based on these reconciliations.

       Agency Response:

       According to CR, the reconciliation process is ongoing with reconciliation meetings
       scheduled around the tenth of the month. Reconciliation will occur by the end of the
       month of the meeting.

       OIG Position:

       There are no reconciliation meetings for employment complaints. The meetings
       mentioned by CR are for program complaints. We had learned during our concurrent
       review (Audit No. 60801-4-Hq) of program complaints processing that these meetings

USDA/OIG/A 60801-3-Hq                                                                    Page 15
       did not result in any immediate change of status. Due to the differences we identified
       during our reconciliation of CR and agencies’ data, and to agency concerns of lack of
       action on CR’s part, CR needs to work with the agencies now to reconcile cases and
       update the tracking system appropriately. To reach management decision, CR needs to
       provide us with its immediate plan of action and date this will be accomplished.

Recommendation 5

       Direct CR to modify Department Regulation 4300-7 to require agencies and CR to
       reconcile their caseloads on a monthly basis.

       Agency Response:

       CR will implement this recommendation through a directive within 30 days.

       OIG Position:

       Based on the above response, we agree to reach management decision on this
       recommendation.

Recommendation 6

       Direct CR to implement management controls to ensure timely and accurate
       reconciliation between CR and the agencies.

       Agency Response:

       Appropriate management controls will be incorporated in the Directive to be issued
       within 30 days.

       OIG Position:

       To reach management decision, CR needs to provide us with the changes made to its
       operating procedures to ensure the Department Regulations will be carried out.

Recommendation 7

       Direct CR to immediately reconcile its cases with those listed by the EEOC as pending
       appeal and hearings.




USDA/OIG/A 60801-3-Hq                                                               Page 16
        Agency Response:

        ECD initiated the reconciliation of cases pending hearings in the winter of 1999 and will
        complete this reconciliation by May 30, 2000. The process will be repeated at the end of
        the fiscal year. The appealed cases were reconciled in January 2000 and will also be
        reconciled twice a year.

        OIG Position:

        At the end of our fieldwork, no one in CR was working on reconciling EEO hearings
        with its data base. Further, we were unable to verify that CR had begun reconciliation of
        EEO appeals. To reach management decision, CR needs to provide us with the results
        of its completed reconciliation of EEO appeals, and its plan of action detailing how it
        intends to reconcile EEO hearings with its data base.

Recommendation 8

        Direct CR to reconcile its cases on a quarterly basis with those cases listed by EEOC as
        pending appeal and hearings.

        Agency Response:

        To complete the reconciliation process for cases pending hearings, CR must contact each
        of the 26 EEOC field offices. CR therefore suggested that the reconciliation occur
        semiannually.

        OIG Position:

        We can agree to management decision on this recommendation when CR incorporates its
        reconciliation process into its operating procedures and provide a date when this would
        be accomplished.



                                                 On August 3, 1999, the CR director briefed the
Conclusion No. 2
                                                 Secretary and other USDA officials on the
CR’s Representations of Its Progress
                                                 status of EEO complaints within the
Do Not Reflect Actual Performance
                                                 Department. We tested the information used
                                                 by the director and found that her data did not
        accurately reflect the actual number of employment cases accepted by CR for processing
        or the timeframes for processing complaints.


USDA/OIG/A 60801-3-Hq                                                                   Page 17
       The chart below was presented at the August 3, 1999, briefing. It represents the number
       of cases accepted and closed for fiscal years 1997, 1998, and 1999.




                Table 9. EEO Cases Accepted and Closed, According to CR.

       The number of cases accepted is misleading because it includes cases that were filed
       by complainants but that had not yet been formally accepted by CR for processing. To
       accept a case means that a CR EEO specialist has reviewed the complaint and the
       counselor’s report from the informal process to determine whether the complaint is
       valid. (CR rejects, on average, about 10 percent of all complaints annually as invalid.)
        The figures presented by the CR director represent all the cases filed by complainants,
       not the cases accepted for processing.

       The figures presented by the CR director for closed cases were also misleading. A
       large percentage of cases closed by CR had been settled by the agencies or had been
       withdrawn by the complainant at some point prior to formal acceptance by CR.
       Crediting CR with these closed cases misrepresents the actual efficiency of the
       division.

       Finally, the figures may be understood to depict a correlation between the number of
       cases accepted and the number closed, but this is not the case. The number of
       complaints “accepted” in fiscal year 1999, for example, is, as stated, the number of
       complaints filed in that year, but the number of complaints closed includes complaints
       from prior years that had been closed in 1999. Most of CR’s activity for 1999 was in
       fact based on resolving prior years’ complaints, not 1999 complaints.
       The table below presents a more accurate representation of the cases actually accepted
       for processing and closed for the 3 fiscal years. We compiled these figures directly

USDA/OIG/A 60801-3-Hq                                                                 Page 18
       from EEOMAS. The accepted cases include only those cases that CR had formally
       accepted for processing, while the closed cases exclude those cases closed by CR
       before it formally accepted them.


                                 Ca se s Acc ep ted a n d Clo se d

              1000
                                   890
               900
               800                                               751

               700
               600                                                                FY 97
                           484                            504             467
               500                                                                FY 98

               400                                                                FY 99
                                            295
               300
               200
               100
                 0
                                 Accepted                       C losed

            Table 10. Number of Cases Accepted, as Determined by OIG.

       Again, there is no correlation between the number of cases accepted by CR each year and
       the number of cases closed.

       Also at her August 3, 1999, briefing, the CR director presented the following chart
       depicting the average number of days CR had taken to complete an employment case.




                Table 11. Average Days to Process EEO Cases, Calculated by CR.

USDA/OIG/A 60801-3-Hq                                                                Page 19
       This chart suggests that there has been a dramatic improvement in the time it takes CR to
       process employment discrimination complaints. However, the CR director’s figures do
       not appropriately reflect actual processing times and do not provide a meaningful
       comparison. Although they appear to represent the number of days that it took to close
       all cases closed during those 3 fiscal years, they actually represent the average number of
       days to close cases that were filed with CR in each of those fiscal years. Specifically, the
       figure of 87 days for fiscal year 1999 is the average number of days that it took to close
       all cases that had been filed with CR between October 1, 1998, and August 2, 1999, a
       period that could not exceed 307 days. By comparison, the figure of 363 days for fiscal
       year 1997 is the average number of days it took to close all cases that had been filed
       during fiscal year 1997 and closed by August 2, 1999. This counts all cases that were
       filed between October 1, 1996, and September 30, 1997, and that had been closed up to
       August 2, 1999, a timeframe that could extend up to 1,034 days.

       We also noted that the two charts presented by the CR director were not based on the
       same methodology. (See Tables 9 and 11.) Taken together, the charts may give the
       impression that CR closed 527 cases in fiscal year 1999 within an average timeframe
       of 87 days, but this is not the case. The first chart is based on the number of
       complaints received over the years and closed in 1999, while the second chart is based
       on the number of complaints CR was counting as filed and closed in 1999 only. The
       average time taken to complete processing of the 527 cases was 679 days. The 87-day
       average CR computed for 1999 was based on only 63 of those cases.

       When we reviewed the 63 cases, we found that 60 had not even been accepted, while
       the other 3 had been accepted but then dismissed due to litigation. Of the 60 cases that
       were not accepted, 39 (65 percent) had been closed because of a settlement reached
       between the complainant and the agency, while the remaining cases were closed
       because they were duplicate complaints or withdrawn cases. We concluded that the
       CR director should have based her chart numbers for fiscal year 1999 on the three
       cases that had been accepted that year.

       The chart below represents the processing timeframes using the same methodology used
       by the CR director but excluding those cases that had not been formally accepted by CR.
       While this still does not provide a meaningful comparison between the years, it is a more
       accurate representation of the time expended by CR to complete some processing of the
       more recent cases.




USDA/OIG/A 60801-3-Hq                                                                     Page 20
                             AV E R AG E D AYS T O C OM P L E T E AC C E P T E D C O M P L AIN T S
                                                      A s o f A u g u s t 2, 1999.
                                                                                                              Per C R
                                                                                                              P e r OIG

                                        87
              FY99                                                 222


                                                                 213
              FY98                                                                        312


                                                                                                 363
              FY97                                                                                             445



                     0                  100               200                       300                400                500
                                                                     D ays


            Table 12. Average Days to Process EEO Cases, Calculated by OIG.

       It should be noted that the figure of 222 days in fiscal year 1999 is based only on those
       three cases mentioned above that were immediately closed due to pending litigation.
       Because these three cases never went through the entire complaint process, the 222-day
       timeframe actually represents the time these three cases were awaiting acceptance by
       CR, far exceeding the 180-day timeframe established by EEOC for accepting and
       investigating a complaint. (See Conclusion No. 4.)

       Finally, we believe the age of those cases still being processed by CR is a fair indicator
       of CR’s servicing efficiency. The chart on the following page represents the average
       number of days that cases filed per EEOMAS in each of the 3 fiscal years had been open
       as of August 2, 1999. The age of these cases shows that as these cases are closed, the
       averages presented by the CR director in Table 11 will only increase.


                                         AV E R AG E AG E O F C AS E S S T IL L O P E N
                                                         A s o f A u g u s t 2, 1999.




               FY99                      157




               FY98                                                           467




               FY97                                                                                            803




                         0        100        200   300           400           500         600     700       800          900
                                                                 Age in D ays


             Table 13. Average Age of Open EEO Cases, Calculated by OIG.


USDA/OIG/A 60801-3-Hq                                                                                                           Page 21
        The CR director stated that her staff had prepared the charts and that she did not know
        what data made up the averages. She maintained, however, that in her opinion, the
        charts were a valid presentation of the data.

        We believe CR should provide full disclosure of the data presented regarding civil rights
        activities. The process should include a review of the methodology used to extract the
        data from CR’s data base, how the data is used and what it means. In addition to
        explaining the underlying data, there needs to be a consistent application of the
        methodology from year to year.

Recommendation 9

        Direct CR, when presenting data regarding civil rights activities, to provide full
        disclosure about the data, methodology on how the data is used, and what exactly it
        means, and to be consistent in reporting over time.

        Agency Response:
        Within 45 days, the Tracking Analysis and Application Division (TAAD) will institute
        an internal quality control review that ensures the integrity of the data presented by
        CR. This review will include the method of data extraction, define the representation
        of the data, and add the run date as a footnote on all outgoing reports.

        OIG Position:

        Based on the above response, we agree to reach management decision on this
        recommendation.

                                                  In his letter, the Secretary expressed his
Conclusion No. 3
                                                  concern about the accuracy of CR’s case-
Other Data Bases Exist, but CR Does Not
                                                  tracking system and asked us to identify other
Use Its Current Data Base Effectively
                                                  case-tracking systems that were available “off-
                                                  the-shelf” and that could be installed with a
        minimum of delay. We are not aware of other case-tracking systems that could be
        installed expeditiously; however, our evaluation determined that CR’s current
        employment complaints data base is being underutilized and that a different system
        would not, per se, solve the case-tracking problems that exist at CR. CR’s data base can
        be an effective control to track the status of cases within the complaints resolution
        process. However, ECD does not update the data base in a timely manner and does not
        properly use the data fields so that others may readily determine the status of cases and
        compile accurate data for reporting purposes. We found 186 cases that were further
        along in the process than indicated by the data base, and another 42 cases whose status as
        shown in the data base was not supported by the casefiles.

USDA/OIG/A 60801-3-Hq                                                                    Page 22
       CR’s data base, EEOMAS, was implemented before the creation of CR as it exists
       today. It was developed by a contractor using a dBASE-compatible data base under
       the old PC-DOS operating system, and lacks advanced security and edit checking
       capabilities which would help ensure the integrity of the data. While EEOMAS is not
       as sophisticated and user-friendly as current software, it has been modified through the
       years to meet CR’s requirements.

       ECD employees noted that EEOMAS does not capture all of the information they need
       and that frequent system crashes have contributed to the questionable usefulness of the
       system. ECD Employees further stated that they relied more on the casefile for the
       status of the case than EEOMAS. However, we found during our inventory process
       that complaint casefiles were not a reliable source for information either (see
       Conclusion No. 1).

       While we noted that EEOMAS had crashed in the past, we determined that this was
       not an insurmountable obstacle to case tracking. Rather, our tests of the data
       maintained on EEOMAS showed that ECD did not use the system effectively. We
       obtained copies of the division’s data base as of September 7 and September 30, 1999,
       to test the reliability and completeness of its data. Generally, we found that division
       personnel had not updated the data base in a timely manner, had not entered all critical
       data, and had entered a preponderance of unrelated data into one data field.

        o Untimely updates. Among the 186 cases that we identified as further along in the
          process than indicated by the data base were some shown as pending acceptance
          when dismissal drafts had been prepared, and some shown with FAD’s pending
          signature (in September) when the FAD’s had been signed in July and August.
          Among the 42 cases whose data base status was not supported by documentation
          in the files were some reported in the investigative phase that showed no evidence
          of ever having been accepted.

           We also evaluated the data base on the two dates (September 7 and September 30)
           to determine how timely data was updated. Timely data base updates are equally
           important to ensure that management reports are accurate. Using the September
           30, 1999, copy of the data base, we extracted data that should have been entered
           on or before September 7, 1999, but was missing from our copy of the data base
           as of that date. We identified 56 cases received, 38 counselor reports received, 7
           cases accepted, and 16 cases closed that had not been timely updated on the
           September 7, 1999, data base.

        o Missing Data. Not all records in the data base contained the dates of actions taken
          during the processing of complaints, such as the date the division accepted the
          case, or the date that the report of investigation was received as final. EEOMAS
          is designed to use critical dates such as these to update the status of the division’s
          caseload on a daily basis. The status field in the data base is used by the division

USDA/OIG/A 60801-3-Hq                                                                  Page 23
           to report how many cases are in each phase of the complaint process. We found
           112 instances where cases showed an ‘error’ status because dates or other data
           were missing. CR did not routinely review these errors to determine their cause.
           We were able to determine the status of 99 of these 112 cases based on our
           casefile review.

        o Misused data fields. Division personnel rely heavily on a memorandum field in
          the data base rather than the date fields to determine where the case is in the
          processing cycle. While memorandum fields may be useful for EEO specialists to
          document certain events not otherwise captured in the data base, it cannot be used
          to systematically extract meaningful information for reporting purposes. The
          division data base administrator periodically generates a report for CR
          management showing the number of cases in each phase of the complaint process.
          This report relies on the date and status fields to extract this information. Those
          cases where status information was captured in the memorandum field will not be
          accurately reported.

        o Security of data and files. The division relies on EEOMAS to track casefile
          location, but because security over EEOMAS is weak, this reliance is misplaced.
          Although only two employees have the authority to check out files from the file
          room, nearly every employee in the division has the ability to update EEOMAS;
          consequently, every employee can change the location of the file. We also noted
          that not all entries were accurate or current. Our copy of the EEOMAS data as of
          September 30, 1999, showed 379 files checked out to “contractor,” even though
          the division does not send the entire casefile to the contractors. Another 21 cases
          were shown as still checked out to two former division managers, one of whom
          left CR almost a year earlier. For over 1,400 cases, the file location was left
          blank. Again, we learned that division personnel were using the memorandum
          field rather than the location field to document the location of the casefile.

       We contacted five other civil rights agencies in the Federal Government and two
       private software vendors to determine whether an “off-the-shelf” tracking system
       existed. We found that no tracking system would be easily implemented and that
       agencies had contracted out for their systems to suit their own needs and interface with
       their Department’s current systems.

       Currently, CR is in the process of developing a new employment complaint tracking
       system based on the same software it uses for the new program complaints tracking
       system. The new system promises to contain advanced security and edit checks to
       help ensure data integrity. Under this new system, each employee responsible for
       some phase of the case will receive the case electronically, complete an action on it,
       and forward the case electronically to the next responsible employee. The system
       itself will track the movement of the case and accurately maintain its status, as well as


USDA/OIG/A 60801-3-Hq                                                                  Page 24
       provide an audit trail of changes made to the data base. We concluded that, if used
       properly, this system will increase the efficiency of ECD, and we are recommending
       that the CR director expedite the implementation of the system.

       Until CR can implement its new EEO complaint tracking system, we believe CR
       should work with its data base administrators to increase the effectiveness of
       EEOMAS. Specifically, CR should maintain the integrity of its data base by
       implementing a program of identifying suspect data in the system through routine
       searches for anomalies. For instance, reports could be generated from the data base
       identifying cases where data is missing or possibly incorrect. CR should assign at least
       one person with the responsibility to follow up on those suspect cases. CR should also
       discontinue the use of EEOMAS to track the location of casefiles or develop a system
       that ensures the accuracy of the file location and that can be updated only by those
       with the authority to do so.

       Only after CR has assured itself that all data in EEOMAS has been cleansed of
       inaccuracies and of mislocated data should it migrate EEOMAS information to the
       new EEO tracking system.

Recommendation 10

       Direct CR to expedite the implementation of its new employment complaint tracking
       system containing advanced edit checks to ensure the integrity of the data and
       providing workflow functions for casefile management.

       Agency Response:

       The Employment Data Tracking System (EDTS) is in its second phase of
       development. EDTS will have advanced edit checks to include lookup lists for ease of
       entry to avoid typographical entries, and contain a workflow system which allows
       users to track the flow of a case, providing better case management. The new system
       will be tested and finalized, including staff training, by September 30, 2000.

       OIG Position:

       Based on the above response, we agree to reach management decision on this
       recommendation.




USDA/OIG/A 60801-3-Hq                                                                 Page 25
Recommendation 11

       Direct CR to maintain the integrity of the data in its tracking system by identifying
       suspect data in the system through routine searches for anomalies, and by assigning
       someone the responsibility to follow up on those suspect cases.

       Agency Response:

       Beginning immediately, TAAD will identify suspect data by presenting weekly reports
       to ECD for action. These reports will identify missing data or invalid date entries for
       correction. TAAD will follow up with the specialist to ensure corrections are being
       made.

       OIG Position:

       Based on the above response, we agree to reach management decision on this
       recommendation.

Recommendation 12

       Direct CR to discontinue using its data base to track casefile location, or otherwise
       develop a system that ensures accurate casefile location that can be updated only by
       those with the authority to do so.

       Agency Response:

       CR’s new employment complaints data base, EDTS, will have the capability to track
       the location of the casefiles. EDTS will be available in October 2000. Until EDTS
       becomes available, TAAD will modify a file tracking system developed for another
       USDA agency to suit CR’s needs. The modifications and installation of this new file
       tracking system will be completed within 30 days.

       OIG Position:

       Based on the above response, we agree to reach management decision on this
       recommendation.

Recommendation 13

       Direct CR to cleanse its current data base before migrating the information to the new
       EEO tracking system.


USDA/OIG/A 60801-3-Hq                                                                Page 26
       Agency Response:

       TAAD will work closely with ECD to assist in cleansing the data. EDTS is scheduled
       to go online in October 2000. TAAD will identify key fields for migration to the new
       system and will work closely with employment complaints staff to clean those fields.
       TAAD will verify the validity of the data by providing reports to the employment
       complaints staff for concurrence.

       OIG Position:

       Based on the above response, we agree to reach management decision on this
       recommendation.




USDA/OIG/A 60801-3-Hq                                                              Page 27
    Chapter 2: EEO Complaint Processing

    CR’s Management Practices Prevent CR From Processing
    Complaints With Due Care and From Resolving Them Within
    the Timeframes Established by EEOC

                                                        CR has adopted management practices that
    Conclusion No. 4                                    have nullified its ability to hold employees
                                                        accountable for their job performances.
                                                        Under CR’s practices, staff members of ECD
             must be available to perform in whatever critical area management moves them,
             regardless of the procedures that hold employees accountable for the quality of the
             work for which they were employed and the timeliness of their performances. CR has
             adopted these practices because its constant reorganizations and management turnover
             have left it without a long-term plan to ensure a consistent level of productivity. The
             resulting work environment, with its lack of accountability and poor morale, has
             affected the division’s ability to process employee complaints in a timely manner and
             to ensure due care for each complaint. We found active cases from fiscal years 1998,
             1997, and even 1996, that were still pending acceptance. We also found reports of
             investigation that failed to include critical interviews and did not stand as objective
             statements of fact.

             Timeframes and Employee Accountability

             During our review of complaint processing, we found that even though CR has had a
             consistent influx of EEO complaints (between 70 and 80 a month) over the past 3
             years, it has had difficulty processing complaints at a consistent rate to meet EEOC’s
             established timeframe of 270 days.5 The CRAT report of February 1997 identified the
             Department’s inability to process EEO complaints timely and effectively, noting that it
             took an average of nearly 3 years to complete a case. The GAO report of January 1999
             arrived at the same conclusions, noting that CR’s record of processing employment
             complaints has been among the worst in the Federal Government.

             EEOC regulations require that formal EEO complaints be accepted and investigated
             within 180 days from the date of complaint, and adjudicated within another 90 days.
             We found during our review that adherence to these timeframes remains the exception
             rather than the rule. Those cases pending acceptance on September 7, 1999, had an
             average age of 210 days, already exceeding the number of days by 30 within which
             these cases should have been investigated. Based on our review of 88 statistically
             sampled ROI’s, we estimate that an average of 243 days6 was taken to accept and
5
    This timeframe excludes a possible EEOC hearing, during which complaint processing is beyond CR’s control.
6
    See Exhibit D for our Summary of Statistical Estimates.

USDA/OIG/A 60801-3-Hq                                                                                   Page 28
             investigate an EEO complaint. The age of those cases pending approval of the draft
             reports of investigation (ROI) and draft final agency decisions (FAD) is, on average, 474
             days and 688 days respectively. Overall, the average number of days it took CR to close
             a case from fiscal year 1997 through August 2, 1999, was 699 days.

             We concluded that CR’s operations were short-sighted and did not function according to
             any long-term plan to which CR could hold employees accountable. In early 1998, for
             example, in order to clear a backlog of new complaints, CR abandoned its procedures for
             accepting or rejecting complaints and accepted all complaints, regardless of their merits
             and regardless of the consequences the decision would have on CR’s investigative
             workload. However, even before 1998, CR’s performance was erratic and reflected what
             we determined was CR officials’ tendency to focus all of the agency’s resources on
             whatever phase of complaint processing demanded attention. Managers were not let to
             manage their own areas of specialty, but were called upon to furnish resources for some
             other priority area.

             Using CR’s data, we identified those periods during which CR’s productivity changed to
             respond to management’s priorities. During each period, as CR was productive in the
             area it chose to emphasize, it was simultaneously unproductive in the area it chose not to
             emphasize. The following chart shows the rising and falling off of productivity as CR
             changes focus between accepting cases and closing them.


                                                                        CR's MANAGEMENT OF WORKLOAD
                                                                          Per Data from EEOMAS as of September 7, 1999.

       400

                                                                                                                                                              Filed
                                                                                                      Switch in focus                Focus again              Accepted
       350                                                                                            to acceptance.                 switches to
                                                                                                                                    closing cases
                                                                                                                                                              Closed
                                                                                                                                     rather than
                                                                                                                                    acceptance of
       300                                                                                                                           new cases.
                                                    New cases filed
                                                   remains relatively
                                                      constant.
                    Focus in closing
       250         cases rather than
                     acceptance of
                      new cases.


       200



       150



       100



        50



        0
               Qtr1-97         Qtr2-97   Qtr3-97            Qtr4-97       Qtr1-98       Qtr2-98       Qtr3-98           Qtr4-98   Qtr1-99           Qtr2-99           Qtr3-99




    Table 14. Depiction of Productivity and Nonproductivity Due to CR’s Changes of Focus

             As the chart shows, even though CR receives complaints at a fairly predictable rate, it
             has a history of reacting to priorities rather than anticipating them. It has no plan in place

USDA/OIG/A 60801-3-Hq                                                                                                                                                           Page 29
       to ensure that it can efficiently meet its commitments to the Secretary and to EEOC.
       Instead it reacts to the exigencies of the moment. One division manager characterized
       the constant establishment of new priorities as “crisis management.” Under this
       management practice, CR cannot ensure that complaints are processed efficiently
       because it has lost control of manager accountability. Manager accountability is the
       expectation that managers are responsible for the quality and timeliness of program
       performance, increasing productivity, controlling costs, and mitigating adverse aspects of
       agency operations. Although CR has formal procedures to ensure that managers would
       be held accountable for EEO complaint processing, it has, because of its management
       practices, nullified its ability to hold anyone accountable.

       For example, CR could not exercise accountability during its effort in 1997 to resolve all
       backlogged employee complaints noted in the CRAT report of January 1997. The
       director at that time assembled a task force to clear the backlog, and this initiative
       extended through September 1997. Because the bulk of the staff was reassigned to the
       backlog team, new cases were not being processed during the initiative period. By
       September 1997, the number of complaints to be accepted or dismissed had inflated to
       approximately 500. Because of CR’s initiative, no one was being held accountable for
       the growing backlog of new cases; management’s solution to the backlog was simply to
       create another task force in October 1997.

       This task force worked on the backlog of new cases until January 1998. As noted earlier,
       management decided to accept all employee complaints at that time to facilitate the
       processing of the backlog. This decision increased the volume of cases ECD had to
       process. Subsequent initiatives had to be undertaken to address backlogs that developed
       in neglected phases of the complaint process. For one initiative, contractors were hired
       to write FAD’s, but according to an ECD manager, almost every decision had to be
       rewritten. The FAD-writing initiative resulted in a growing number of cases pending
       acceptance that as of the date of our fieldwork stands at nearly 750. Again, no single
       manager or staff group is being held accountable for the backlog.

       During our review, we observed CR’s crisis management at first hand. In October 1999,
       when the backlog of cases pending acceptance had reached 700, CR management
       decided to contract out this function. Approximately 400 pending cases were submitted
       to four contractors. We asked management how this large volume of cases would be
       processed when it returned from the contractors and reentered ECD’s workload. We
       were told that with “some type of intervention” at the FAD-writing stage, the staff could
       handle it. We concluded that CR did not have a plan to ensure the efficient processing of
       the cases. Without a plan to which it can hold employees accountable, management will
       continue to face large backlogs of cases at each phase of the complaint process.

       Management’s reluctance to hold nonproductive employees accountable is reflected in
       their performance appraisals. We found that employees were rated fully successful or


USDA/OIG/A 60801-3-Hq                                                                   Page 30
       superior regardless of their performance level. We obtained copies of fiscal year 1998
       performance appraisals for the current ECD employees and three ex-employees. We
       found no indication that any employees in ECD had been placed on a performance
       improvement plan. Thirteen of the 26 employees in ECD who had been rated for fiscal
       year 1998 received outstanding performance appraisals.

       ECD’s appraisals also showed that the GS-14 branch or team leaders received
       performance appraisals signed by the GS-15 of the division, but only one correctly bore
       the CR director’s signature as reviewer. Also, a former division chief did not receive an
       appraisal for either fiscal year 1998 or 1999.

       The degree to which the CR director provided any guidance on employee accountability
       was not discernible. A former division chief said she was instructed to submit the
       division employees’ appraisals to the CR director for review, but the CR director said
       she issued no such instruction. However, we noted that the CR director had signed the
       appraisal of one GS-14 team leader, as well as three appraisals of employees at grade 13
       and below as the reviewing official. In our opinion, the CR director should set an
       example for the division by performing the required appraisals or signing as the
       reviewing authority on other appraisals.

       Reorganization and Changes in Leadership

       We concluded that CR’s management practices and inattentiveness to employee
       accountability have resulted from the constant reorganizations and changes in leadership
       it has undergone since its inception in 1997. Since January 1997, ECD has experienced
       no fewer than three complete changes in its entire chain of command, from the Assistant
       Secretary for Administration (ASA) to the ECD chief. Each change in management has
       brought a new focus and a different emphasis within CR. Different priorities have been
       established, and employees have been shifted or reassigned to address the most recent
       initiatives established by the new management. Under these circumstances, CR has been
       unable to implement a long-term plan to ensure compliance with its EEOC obligations.

       The timeline on the following page depicts the management changes that have occurred
       since January 1997:




USDA/OIG/A 60801-3-Hq                                                                  Page 31
                                       MANAGEMENT TURNOVER SINCE 1997

              ASA        ASA 1                        ASA 2                                       ASA 3                                        ASA 4                ASA 5


                         PACC & OO,
                         DIRECTORS                                                         CR DIRECTOR
       DIRECTORS                                         CR DIRECTOR 2                                                                 CR DIRECTOR 4
                                 a                                                               3
                             1


          DEPUTY
    DIRECTOR FOR                                 DEPUTY DIRECTOR 1                         DEPUTY DIRECTOR 2                                 DEPUTY DIRECTOR 3
     EMPLOYMENT


                                                                                                                                                                 CHIEF 3
     EMPLOYMENT
                                                                                                                                                             b
      COMPLAINTS                                     CHIEF 1                                                            CHIEF 2
    DIVISION CHIEF
                                                                                                                                                                           C
                                                                                                                                                                 CHIEF 4
                                             7




                                                                                              8




                                                                                                                                                  9
                                 7




                                                                                 8




                                                                                                                                   9
                                                                   7




                                                                                                                   8




                                                                                                                                                                     9
                                                      7




                                                                                                       8




                                                                                                                                                        9
                                          r-9




                                                                                           r-9




                                                                                                                                               r-9
                              n-9




                                                                              n-9




                                                                                                                                n-9
                                                                 t-9




                                                                                                                  t-9




                                                                                                                                                                    t-9
                                                     l-9




                                                                                                      l-9




                                                                                                                                                       l-9
                                                                Oc




                                                                                                                 Oc




                                                                                                                                                                   Oc
                                        Ap




                                                                                         Ap




                                                                                                                                             Ap
                                                    Ju




                                                                                                     Ju




                                                                                                                                                       Ju
                            Ja




                                                                            Ja




                                                                                                                              Ja
                     a
                         PACC handled all policy and compliance activities; OO, handled all EEO and Program Complaints prior to the consolidation of CR.
                     b
                         Deputy Director, Acting
                     c
                         Employment Adjudication Division was formed in October, 1999, now 2 Division Chiefs for Employment.
                         Vacant


Table 15. Stratified Depiction of the Changes in CR’s Management Chain of Command Since 1997.



                     The major change in work assignments within the ECD occurred in May 1998. At that
                     time, the division discontinued its mission approach to complaint resolution, whereby
                     ECD teams were responsible for the complete processing of a specified caseload, and
                     adopted a functional approach, whereby each team was responsible for processing all
                     complaints through only one specified segment of the resolution process. We noted that
                     in spite of the reorganization of ECD at that time, the division continued to practice
                     “crisis management,” regardless of its nominative approach to complaint processing.

                     Questions of Due Care

                     As a result of CR’s lack of employee accountability, it cannot ensure the timeliness of
                     complaints resolution, as described above, and it cannot ensure the quality of its ROI’s
                     and FAD’s. CR returns an estimated 13 percent7 of the possible review cases of the
                     ROI’s because of inadequacies. Nevertheless, CR accepts ROI’s that show incomplete
                     and nonobjective investigative work, and it renders FAD’s that do not appear to derive
                     from information contained in the ROI’s.

                     Inadequate ROI’s. For investigations, CR relies on EEO investigators contracted
                     through the General Services Administration who have 45 days to investigate the
                     complaint and provide a report to CR. We estimate that 237 cases of the estimated 996
7
  Our estimate is 13.04, but we are 95 percent sure that the actual percent of ROI’s returned to contractors is
between 8.02 and 18.06 with a precision of 5.021 (See exhibit D.)

USDA/OIG/A 60801-3-Hq                                                                                                                                            Page 32
            cases where an ROI had been completed had to be sent back to the contractor for
            additional work or documentation. When CR returns a case to the contractor, CR
            documents the information needed to make the ROI complete. Our review disclosed that
            ROI’s were returned because exhibits were missing or incomplete, responding officials
            or other knowledgeable parties had not been interviewed, and adequate documentation
            had not been gathered on the issues raised in the complaint.

            In one case we reviewed, an ROI was returned to the contractor with a list of 11 items
            needed before the ROI satisfactorily addressed the accepted issues in the complaint.
            Two of 11 items noted that the contractor failed to obtain testimony from witnesses
            named in the complaint and failed to investigate one of the complainant’s allegations.

            Inadequate CR Reviews of ROI’s. We selected a statistical sample of 88 ROI’s from an
            estimated universe of 996 cases with final ROI’s.8 We selected our sample to review
            CR’s processing of employment complaints. We identified numerous cases where the
            final ROI’s were inadequate, indicating that they were not thoroughly reviewed or not
            reviewed at all. We found one instance where the ROI was so poor that a supplemental
            investigation had to be conducted. In this case, the original reviewer sent the ROI
            forward as sufficient, but the writer of the FAD determined it was not. This person
            requested that the supplemental investigation be conducted in order to adequately
            address the issues in the complaint. Because the contractor or the original ROI was no
            longer under contract, CR had to assign the supplemental investigation to another
            contractor, incurring additional costs.

            We also identified instances where the ROI did not address all the accepted issues in the
            complaint, was missing exhibits, contained exhibits that did not seem to be material to
            the issues being investigated, and did not show that all responding officials or others
            with knowledge of the case were interviewed. These deficiencies resulted in ROI’s that
            appear to be weighted towards either the complainant’s or the agency’s position rather
            than standing as an objective statement of the facts. For instance, in one ROI, the
            investigator had not talked to all of the witnesses identified by the complainant yet had
            obtained affidavits from agency officials who had no knowledge of the circumstances
            surrounding the complaint.

            FAD’s Contain Questionable Statements. When available, we also reviewed the FAD’s
            relating to the ROI’s we reviewed. Many cases we reviewed had been settled between
            the agency and the complainant after the ROI was completed but before a FAD was
            written. FAD’s are written based on the issues and bases (i.e., race or gender
            identification, etc.) accepted in the complaint and any other bases that had been
            investigated relating to those issues. We found several instances where we question the
            adequacy of those FAD’s. Some of the FAD’s we reviewed included issues or bases not

8
  See the Scope section of this report for an explanation of our derivation of the universe of ROI’s and our statistical
sample.

USDA/OIG/A 60801-3-Hq                                                                                        Page 33
       formally accepted or investigated, while others failed to include all of the issues or bases
       accepted and investigated.

       For example, one of the cases we reviewed was formally accepted and investigated on
       the basis of race and reprisal for previous EEO activity; however, the FAD was written
       only on the basis of race and did not address the basis of reprisal. Another case,
       accepted on the bases of race and age, was ultimately adjudicated on the basis of race,
       age, and sex. The basis of sex was explicitly not accepted by CR because the
       complainant had not raised the basis during the informal counseling stage of the
       complaint process. Indeed, the counselor’s report did not address the basis of sex.
       Further, our review of the ROI indicated that the basis of sex was not investigated. We
       question how CR could issue a decision based on sex when the basis was not
       investigated.

       We concluded that the amount of time CR takes to complete its employment complaint
       cases bears no relation to the quality of the processing. Although CR employees are able
       to identify inadequate ROI’s and FAD’s through their internal reviews, they do not
       maintain their vigilance, either in evaluating ROI’s for sufficiency, or in rendering
       quality FAD’s.

       Lack of accountability, management turnover, reorganizations, and low employee morale
       have all affected the work environment within ECD. CR could address these issues by
       developing a workforce planning strategy. The first step in this strategy would require
       job classifiers to evaluate ECD’s operations and ascertain the type of positions and grade
       levels needed to process employee complaints. It should also address training to ensure
       that employees are able to accomplish their assigned responsibilities. The strategy must
       include an appraisal system which establishes performance standards, communicates
       elements and standards to employees, establishes methods and procedures to appraise
       performance against established standards, and provides appropriate use of the appraisal
       information in making personnel selections.

       In the short-term, CR needs to strengthen its oversight of ROI’s and FAD’s. A review
       system is in place, but it is clearly not effective and requires closer supervision to ensure
       that the reviews are performed and that they are thorough. CR also needs to revisit the
       ROI’s and FAD’s that we found deficient and ensure that the complaint in each of these
       cases has been handled with due care.

       The issues identified throughout this report are similar to those reported in previous
       phases of our ongoing reviews of CR. Given our prior experiences with CR, and its
       inattentiveness to implementing our recommendations from the prior six evaluations, we
       conclude CR needs to develop a management plan to guide the agency in implementing
       positive change. The management plan should help create an organization that can
       withstand management changes and focus on its mission. Due to the longstanding


USDA/OIG/A 60801-3-Hq                                                                      Page 34
       problems identified with personnel, CR should consider the use of an unbiased third
       party to assist in the development of the plan.

       In her response, the CR director included her belief that OIG, despite its best efforts,
       did not have the background and ability to substitute its judgment of what an adequate
       FAD is for the judgment of ECD. Our review of the FAD’s focused only on obvious
       errors and omissions and did not consider their legal sufficiency. CR’s issuance of
       FAD’s that address issues and basis not investigated, as cited in our report, leads us to
       question whether supervision over the writing of FAD’s was sufficient.


 Recommendation 14

       Develop a management plan to address issues identified concerning effective leadership,
       changing organizational culture, customer focus, and process improvement and
       reengineering. This plan should include the development of a workforce planning
       strategy. The use of a management consultant to help develop such a plan should be
       considered.

       Agency Response:

       Classifications for jobs for civil rights are prepared by Departmental Administration’s
       Human Resources Division. Generally, the positions in the Office of Civil Rights are
       appropriate; the grades are high because personnel were assigned to the positions.

       OIG Position:

       CR’s response did not address the recommendation. To reach management decision, CR
       needs to provide us with a management plan to address the areas of effective leadership,
       changing organizational culture, customer focus, process improvement and
       reengineering, with emphasis on long-term planning. This plan should include the
       development of a workforce planning strategy that would require job classifiers to
       evaluate the Employment Complaints Division’s operations and ascertain the type of
       positions and grade levels needed to process employee complaints, and that would
       include an appraisal system that establishes performance standards for use in both
       appraisals and in personnel selection.

Recommendation 15

       Develop management controls to ensure the reviews of ROI’s and FAD’s are performed
       thoroughly and that the documents provide accurate information.




USDA/OIG/A 60801-3-Hq                                                                  Page 35
       Agency Response:

       CR’s response indicated that the new chief of ECD and the recently acquired chief of
       EAD are taking steps to ensure greater quality of ROI’s and FAD’s.

       OIG Position:

       To reach managment decision, CR needs to develop explicit management controls in
       their operating procedures to ensure that both current and future division chiefs
       perform thorough reviews of ROI’s and FAD’s.

Recommendation 16

       Direct CR to revisit the ROI’s and FAD’s that we found deficient and ensure that the
       complaint in each of these cases has been handled with due care.

       Agency Response:

       According to CR, adequate supervision and management is being given and will be
       provided in the future as they exert tremendous efforts to select the best managers
       possible.

       OIG Position:

       A listing of the complaints will be provided to CR. In order to reach management
       decision, CR needs to provide us with how and when it will revisit the ROI’s and FAD’s
       we found deficient.




USDA/OIG/A 60801-3-Hq                                                                Page 36
Chapter 3: Interdepartmental Relations

CR’s Relations With Other USDA Agencies Have Deteriorated

        CR needs to provide better guidance to the Department on civil rights employment
        issues, and it needs to encourage Department involvement in processing EEO
        complaints. One of CR’s most important missions is to interpret civil rights laws and
        regulations for the Department and to train agency civil rights staffs on the requirements
        of their jobs. CR’s second most important mission is to investigate complaints of civil
        rights discrimination raised against the Department. While CR has the sole authority to
        investigate a formal EEO complaint, the agencies have the ability to settle these
        complaints at any stage of the complaint process. Consequently, both CR and the USDA
        agencies take an active hand in resolving EEO complaints and have every reason to act
        as partners in the process.

        We found that relations between CR and other Department agencies have deteriorated
        over the years. Members of agency civil rights staffs complained of difficulty in
        contacting ECD staff and obtaining advice and direction from CR. The agencies also
        complained that their attempts to notify CR of settlements of EEO complaints were
        generally ignored. This apparent absence of an open door policy has gradually alienated
        Department agencies from CR. Agencies prefer not to contact CR because they receive
        little guidance and no acknowledgment of accomplishment.

        We concluded that CR needs to take action to ensure that agency civil rights staffs are
        adequately trained and to involve the agencies in the complaints resolution process.



                                                    A lack of communication between CR and
Conclusion No. 5
                                                    other USDA agencies hinders the effective
Complaints Processing Requires
                                                    processing of employment complaints. In
A Partnership Between
                                                    addition, there is no effective reconciliation
CR and Other USDA Agencies
                                                    process between CR’s data base and the
                                                    records of any of the other USDA agencies (see
        Conclusion No. 1). Agency officials complained that although they tried to
        communicate with CR to update CR’s data base, heavy staff turnovers at CR made it
        difficult to know whom to contact as the responsible person for the action involved. As
        a result, six agency civil rights directors have given up trying to communicate with CR
        because they seldom get a direct response. Of the 18 civil rights directors, 11 were not
        able to accurately or consistently reconcile or track employee complaints once those
        complaints had been accepted in the formal complaint process.



USDA/OIG/A 60801-3-Hq                                                                    Page 37
       We found that lack of communication between CR and the Department agencies affected
       the efficient sharing of documents critical to EEO complaint cases and the effective
       reconciling of outstanding complaints.

       Untimely or Nonreceipt of Case Documents

       When a complaint enters the formal process, CR is obliged to furnish the agency with
       critical documents that the agency would otherwise not have, such as acknowledgement
       letters, acceptance letters, notification assignments of investigators, copies of the
       requests by the complainant for hearings before the EEOC, and FAD’s. During our
       interviews with the civil rights directors, we discovered that these case documents are
       not received on a timely or consistent basis. FAD’s and ROI’s are received late or not at
       all. As a result, agencies have no current status on formal complaints and are not able to
       reconcile their reports with the monthly report they receive from CR. Agency directors
       stated that sometimes their only notification that an informal case has become formal is
       when a complainant or investigator contacts them for information or requests an
       interview.

       Agency directors also mentioned that it is very difficult to contact personnel at CR when
       they need to request case documents and information. At times, documents begin to
       arrive but then stop. The directors never know when a complainant has requested a
       hearing at EEOC or when the complainant has appealed a FAD. It will be months after
       the fact when they learn of any EEOC decisions, or even that an informal complaint has
       been accepted by CR as formal. This makes it very difficult for the agencies to answer
       questions or provide adequate information to an investigator who may want to know the
       issues of an employees’ complaint. Also, the agencies’ ability to resolve a complaint at
       the earliest stages of the formal process is lost because there is no immediate notification
       from CR that a complaint has been filed. The agencies go for some time not knowing if
       a complaint has been filed, allowing valuable time to elapse before any efforts are made
       to reach a solution.

       An official from one agency also stated that CR loses many of the documents the agency
       provides to them. Multiple requests have been made for the same documents,
       particularly EEO counselor reports and settlement agreements. Agency directors noted
       that they continually fax information to CR only to be told later by CR that it did not
       receive the requested information. One official from another agency noted that there is
       no communication from CR unless it is requesting counselor reports. They do not hear
       from CR unless CR needs something.

       Monthly Reports from CR

       CR provides the agencies with a monthly report that shows the formal employee
       complaints and their status. Agency officials said that this is the only report given to


USDA/OIG/A 60801-3-Hq                                                                     Page 38
       them by CR and that it contains many discrepancies. Case numbers are changed after
       previously being assigned, and cases that show a status as “pending acceptance or
       pending signature” will appear on the monthly report for several months. In addition,
       even though the agencies submit documentation to CR showing cases that have been
       closed, the cases continue to appear on CR’s monthly report.

       Eleven of the 18 agency managers have become so frustrated with CR’s reporting, they
       put little reliance on it. One agency official mentioned that his agency had provided
       documentation to CR on numerous occasions in order to get CR to delete cases from its
       report, but the cases were still there. Another official noted that cases closed due to
       settlement agreements continued to be shown on the CR report.

       Eleven of the agencies had their own tracking systems in place to track formal
       complaints, but their reports never agreed with CR’s report. Agency officials stated that
       they have stopped trying to reconcile their reports to the report from CR. They stated
       that when discrepancies are identified, it takes an enormous amount of time to get them
       corrected, and they do not see any benefit in trying. They rely on the information
       contained in their own reports because they know the information contained on the CR
       report is inaccurate. One official persuaded the agency administrator not to read the
       report from CR due to its inaccuracies.

       Effects of Reorganization

       Because reorganization has occurred so often at CR, CR cannot keep the Department
       fully informed of its changes. One agency official noted that everyone is aware of the
       latest reorganization but that none of the agency directors have been officially informed.
       Other agency civil rights directors said that there are no current organizational charts,
       telephone numbers, or contact lists that are available to the agencies to determine whom
       to communicate with at CR. They said that the quality of the response depends on the
       individual being contacted. Some ECD employees are responsive to agency needs and
       others are not. Many employees assigned to a case are not responsible for the actions
       that concern the agencies. Also, phone calls are not always returned. One agency
       official said that on one occasion she had to make four calls before someone could
       answer her question.

       The ECD division recognizes that its high turnover of personnel has affected its ability to
       perform many of its functions. An e-mail dated July 20, 1999, from the ECD chief to
       CR management stated that the ECD division had a staff of 24 people to process nearly
       1,800 open cases. She noted that the division needed replacements for all personnel who
       had left over a 2-year period and had not been replaced. She also stated that resources
       should immediately be shifted to the division if management expected to meet the
       various legal obligations of the Department. Finally, she noted that if resources were not
       available, serious consideration should be given to transferring these functions back to


USDA/OIG/A 60801-3-Hq                                                                    Page 39
       the agencies within USDA because CR had demonstrated it could no longer perform
       these statutory duties.

       The CR Director did not deny that communication problems between CR and the
       agencies existed; however, she stated that it was ultimately ECD’s responsibility to
       respond to agencies’ needs. Based on discussions with the agency civil rights directors,
       we concluded that one way to improve communications between CR and agency civil
       rights staffs and involve USDA agencies in the complaints resolution process is to
       emphasize the partnership between CR and the agencies in resolving EEO complaints.
       CR should develop a more client-oriented nature and act as an arbiter between the
       complainants and the agencies. For instance, CR could establish points of contact by
       agency to ensure agencies’ needs are addressed. Consequently, we are recommending
       that the Secretary direct the agencies’ civil rights directors and CR to establish and
       develop ways to enhance the working relationship between CR and the agencies’ civil
       rights staffs.

Recommendation 17

       Direct CR and the civil rights directors of USDA agencies to establish and develop ways
       to enhance the working relationship between CR and the agencies’ civil rights staffs.

       Agency Response:

       CR will establish a task force of agency civil rights directors and managers in March
       2000, to provide the Assistant Secretary for Administration recommendations to
       improve civil rights enforcement. CR believes that agency heads should be included
       since the civil rights directors report to the agency heads, not the CR director.

       OIG Position:

       Based on the above response, we agree to reach management decision on this
       recommendation.

Recommendation 18

       Direct CR to publish a current organizational chart and points-of-contact phone listings
       which show the names of staff personnel and their areas of responsibility. Each time the
       Department reorganizes, an updated list should be published.




USDA/OIG/A 60801-3-Hq                                                                 Page 40
             Agency Response:

             CR responded that this had been accomplished and would be placed on the Civil
             Rights website.

             OIG Position:

             Our review of CR’s organization chart found on its website on March 6, 2000, did not
             include phone numbers. Also, since this chart was last updated on September 11,
             1998, five of the eight staffed positions on it listed names of employees who are no
             longer with CR. If this is the means CR will use to provide the agencies with points of
             contact, to reach management decision, CR needs to provide us with assurance that
             this information will be updated regularly.


                                                       Agency civil rights directors complain that they
Conclusion No. 6
                                                       receive minimal guidance from CR on EEO
CR Needs To Provide Better Guidance
                                                       policy and that they rarely receive training on
to the Department on Civil Rights
                                                       handling EEO complaints. Also, issues raised
Policy
                                                       at the CR director’s monthly meetings are
                                                       seldom resolved.       Providing training and
             guidance to USDA agencies on civil rights issues is one of CR’s primary missions, yet
             agency officials believe that CR is unresponsive to their needs, incapable of answering
             their questions, and inconsistent in the direction it provides. There have been three
             important Supreme Court decisions on harassment, and the Department has not
             addressed these areas. EEOC issued guidance on this area on June 18, 1999,9 but no
             guidance has been issued from CR. In the absence of CR guidance, agencies have
             attempted to resolve issues on their own.

             According to the CRAT report, dated February 1997, CR should proactively promote
             civil rights at USDA, provide guidance and oversight to agencies, and establish and
             disseminate civil rights policy to ensure the proper enforcement of all civil rights laws,
             rules, and regulations.

             We found that CR provides little guidance, oversight, or feedback to the agencies on
             civil rights policy or procedures, updates in regulations or regulatory guidance, and
             direction for the enforcement of civil rights laws and rules. Agency officials noted that
             the current employment complaints division is understaffed and does not appear to have
             the expertise to give the agencies adequate guidance or oversight. Two agency civil
             rights directors said many of the agency staffs have been in their current positions longer
             that the CR people and know more about EEO issues than the CR staff.

9
    Guidance 915.002, “Enforcement Guidance: Vicarious Employer Liability for Unlawful Harassment by Supervisor.”

USDA/OIG/A 60801-3-Hq                                                                                   Page 41
       Lack of Training

       CR does not provide any current training to the EEO counselors that are assigned to the
       agencies. Eleven agency directors noted that their counselors are full-time but that CR
       has given no training to them. Of the 18 agency civil rights officials we talked to, 10
       conduct their own training for their counselors, specialists, and agency officials.

       A director from one agency stated that his agency was instructed by CR to be responsible
       for the training of its EEO counselors and staff. Another director said that he did not
       believe CR had any personnel competent or experienced enough to provide adequate
       training. One agency sent its employees to schools and to various training courses in
       order to sustain the requirements of employee complaint processing, counseling of the
       complainant, and resolving issues.

       Monthly Meetings With Agency Civil Rights Directors

       Agency officials stated that EEO-related issues are raised during the CR director’s
       monthly meetings with the agency directors, but that rarely is anyone from the CR staff
       in attendance who can answer questions or resolve any of the problems that the directors
       may have. An agency civil rights official noted that typically the CR director would state
       during the meetings that she would have her staff resolve the problem or contact the
       agency with some type of followup, but rarely did the director or a CR employee get
       back to them. Another director mentioned that an official from CR had been conducting
       meetings relating to employee compliant issues and their current status, but these
       meetings were discontinued after the official left CR for a position at another agency.

Recommendation 19

       Direct CR to establish and provide guidance on training to the agencies and work with
       the agencies to ensure training is developed and conducted in accordance with regulatory
       guidance and EEO standards. This should include identifying and developing EEO
       training needs for agency civil rights personnel.

       Agency Response:

       CR’s response indicated that this would be implemented with the task force
       established with Recommendation 17.

       OIG Position:

       Based on the above response, we agree to reach management decision on this
       recommendation.


USDA/OIG/A 60801-3-Hq                                                                   Page 42
Recommendation 20

       Direct CR to distribute the notes of monthly meetings with agency civil rights directors
       to facilitate followup action.

       Agency Response:

       CR stated that this would be implemented after their next meeting.

       OIG Position:

       Based on the above response, we agree to reach management decision on this
       recommendation.




USDA/OIG/A 60801-3-Hq                                                                 Page 43
Chapter 4: Conflicts of Interest


Separate Controls Are Needed For EEO Complaints Made
Against CR Management


Conclusion No. 7                           Employees of the Employment Complaints Division
                                           process employment complaints made against CR
                                           management. There are no separate procedures in
         place for processing complaints from employees within CR and within Department
         Administration. As a result, these employees are not afforded the opportunity of an
         unbiased, third-party review and may be subjected to acts of discrimination that are
         allowed to continue because the officials responsible for signing decisions may have a
         vested interest in the complaint.

         The ECD processes all formal USDA employee complaints, including those from
         employees working in CR and Department Administration (these are referred to as “in-
         house” complaints). Management stated that employees with knowledge of an in-house
         complaint or officials named in the complaint would be excused from working on a
         specific case. However, we do not believe this mitigates the fact that employees are
         entitled to an unbiased, third-party review.

         In prior years, a Memorandum of Understanding with the Department of Commerce
         established Commerce as the department to process the in-house complaints. According
         to ECD employees, this mechanism is no longer used because Commerce was not
         processing USDA complaints in a timely manner.

         Currently ECD has contracted out in-house cases at the acceptance/dismissal phase. The
         final product submitted by the contractors is a recommendation to CR, which is still
         responsible for determining whether or not the decision should be accepted or dismissed.
         Furthermore, the use of contractors at the acceptance/dismissal phase is a temporary
         situation to address the backlog. ECD employees will process future in-house
         complaints.

         Contractors are responsible for conducting the investigation of complaints by CR
         employees as for all USDA employees. Once the ROI has been accepted, however, ECD
         is responsible for writing and issuing the FAD. The decision is written and reviewed by
         division employees, and the director of CR signs all the FAD’s.

         We noticed one in-house complaint whose dismissal by CR presented an apparent
         conflict of interest. The complaint had named the CR director as a responding official,
         and ECD, uncertain of who was authorized to sign a decision in this case, prepared two

USDA/OIG/A 60801-3-Hq                                                                   Page 44
       draft dismissal decisions, one of which was pending the CR director’s signature, and the
       other of which was pending the signature of the Assistant Secretary for Administration.
       A complainant who receives a dismissal letter from the person he or she complains about
       cannot have faith in the resolution process. A complainant who receives such a letter
       from essentially the same “house” he or she complains about may not have any greater
       faith. We believe allowing the director and even the Assistant Secretary for
       Administration (ASA) to sign a FAD when the director or ASA is named as the
       responding official presents a conflict of interest.

       The confidentiality of in-house complaints is also questionable. The casefiles of
       complaints from in-house employees are maintained and stored in the file room with all
       other complaint casefiles. The potential exists for ECD employees to gain access to
       employee complainant casefiles, violating their privacy, or permitting tampering with
       documentation. The current tracking system can also be viewed and changed by any
       employee.

       As of September 7, 1999, there were 32 open CR employee complaints at different
       stages of the complaint process as shown below.

               •   18 pending acceptance/dismissals
                   (8 of these have been sent to contractors)
               •   12 in the investigation phase
               •   2 pending FAD’s
                   (1 was pending signature and the other was in the draft decision process)

       Of the 32 employee complaints, we were unable to locate or identify the responding
       official in 7 of the casefiles. Subsequent to this date, one of the casefiles was closed
       because two case numbers were erroneously assigned to the same complaint. Five
       casefiles located during our initial inventory count could not be found during our review
       of the in-house complaints. Ten complainants named the director in their complaints as
       the offending party.

       CR needs to develop procedures for processing in-house complaints that would eliminate
       potential conflicts of interest and protect the confidentiality of these complaints. The
       procedures should include a mechanism for processing complaints against the Director
       of CR and the ASA outside of USDA. There should also be caution used in processing
       the remaining in-house complaints to ensure complainants are afforded unbiased due
       care. The controls would include adequate safeguarding and maintenance of the files
       and data base records.




USDA/OIG/A 60801-3-Hq                                                                  Page 45
Recommendation 21

       Direct CR to develop procedures for processing in-house complaints. The procedures
       should provide a mechanism for processing complaints against the Director of CR and
       the Assistant Secretary for Administration outside of USDA. There should also be
       appropriate controls on processing the remaining in-house complaints to ensure
       complainants are afforded unbiased due care. These controls would include adequate
       safeguarding and maintenance of the files and data base records.

       Agency Response:

       CR’s stated that OGC prepared a proposed procedure for processing CR in-house
       complaints to eliminate potential conflicts of interest. The proposal was shared with
       the agencies and would be finalized after the comments are considered and sent
       through appropriate departmental offices for clearance.

       OIG Position:

       OGC had provided us with a copy of the draft proposal. The procedures only relate to
       employee complaints against the CR director. We believe the procedures need to be
       expanded to include more cautious handling of all CR employee complaints. These
       complaints are filed with all other complaints and can be seen by anyone. And even
       though the complaints are investigated by contractors, the ROI’s are reviewed by
       division employees. Decisions are written and reviewed by division employees. The
       current tracking system can be reviewed by all employees; it also allows anyone to
       make changes without identifying who made them. Controls need to be in place to
       ensure in-house complaints are afforded unbiased due care. To reach management
       decision, CR needs to provide a revised draft to include all complaints initiated by CR
       employees.




USDA/OIG/A 60801-3-Hq                                                                Page 46
Exhibit A – Secretary’s Request Letter




USDA/OIG/A 60801-3-Hq                    Page 47
Exhibit A – Secretary’s Request Letter




USDA/OIG/A 60801-3-Hq                    Page 48
Exhibit B –USDA Agency Civil Rights Staff Interviewed

          •   Animal Plant Health Inspection Service (APHIS)
          •   Food Safety and Inspection Service (FSIS)
          •   Rural Development (RD)
          •   Risk Management Agency (RMA)
          •   Natural Agricultural Statistics Service (NASS)
          •   Natural Resources Conservation Service (NRCS)
          •   Economic Research Service (ERS)
          •   Cooperative State Research, Education, & Extension Service (CSREES)
          •   Grain Inspection, Packers & Stockyards Administration (GIPSA)
          •   Foreign Agricultural Service (FAS)
          •   Office of Chief Financial Officer (OCFO)
          •   Office of Inspector General (OIG)
          •   Food and Nutrition Service (FNS)
          •   Agricultural Research Service (ARS)
          •   Agricultural Marketing Service (AMS)
          •   Farm Service Agency (FSA)
          •   Office of Human Resource Management (HRM)
          •   Forest Service (FS)




USDA/OIG/A 60801-3-Hq                                                               Page 49
Exhibit C – Summary of Missing Casefiles (Sorted by Complaint Date)




               EEOMAS                             COMPLAINT
               NUMBER            AGENCY             DATE
                 953034              FSA             6/7/1995
                 970110              FSIS           12/9/1996
                 980224              FSIS           12/18/1997
                 980391              ARS            2/18/1998
                 980620              FSIS            5/1/1998
                 980638             APHIS           5/12/1998
                 980837               FS            7/14/1998
                 980849               FS            7/21/1998
                 981024               FS            9/17/1998
                 981038             APHIS           9/22/1998
                 990014              OGC            11/15/1998
                 990015             HRM             11/15/1998
                 970959              FSA            12/31/1998
                 990413               FS             1/7/1999
                 990422              OO             2/24/1999
                 990645               FS             5/5/1999
                 990813              FSIS            7/9/1999
                 990834               FS            7/16/1999




USDA/OIG/A 60801-3-Hq                                                 Page 50
Exhibit D – Summary of Statistical Projections
The general statistical sample design for this audit was a simple random sampling scheme where
civil rights cases were selected in four separate universes. A 95% two-sided confidence level was
used for all the statistical estimates in this review.

A universe of 1,823 cases was identified for this simple random sample design. There was no
stratification of these 1,823 cases. Since attribute estimates were to be generated from this statistical
sample, a sample size of 88 was selected. All cases were selected with equal probability without
replacement. The sample unit was a case.

Statistical Analysis

All statistical sample design, selection, and statistical estimation were accomplished on a DELL
Pentium Personal Computer using SAS and SUDAAN. The statistical estimates used for
projections along with their standard errors were produced using the Windows version of
SUDAAN, a software system that analyzes sample survey data gathered from complex multistage
sample designs. SUDAAN was written by B.V. Shah of Research Triangle Institute, Research
Triangle Park, North Carolina.

The sample precision for estimating percentage values is defined as

                                                       sp         =   t * STDERR

where

                              t - t factor for a 95% two-sided confidence level
                        STDERR - standard error of the point estimate (percentage value)

Table of Statistical Estimates used in the report:
    Population Estimate: 996.42

                                                                      Estimate     Lower     Upper     Precision
      Of the cases we could have reviewed, the percent of cases
      were required to be returned to the contractor for more
      information/work.                                                13.04        8.02     18.06      5.021
      Estimate of the days from the date of Complaint to the Date
      of the ROI                                                      243.3727   202.6314   284.1139    0.1674
      Estimated number of cases required to be returned to the
      contractor for more information/work                             237.78      146.26    329.31     0.385


Note: All statistical estimates are found in Conclusion No. 4 of the report.



USDA/OIG/A 60801-3-Hq                                                                                            Page 51
Exhibit E – CR’s Written Response to the Draft Report




USDA/OIG/A 60801-3-Hq                                   Page 52
Exhibit E – CR’s Written Response to the Draft Report




USDA/OIG/A 60801-3-Hq                                   Page 53
Exhibit E – CR’s Written Response to the Draft Report




USDA/OIG/A 60801-3-Hq                                   Page 54
Exhibit E – CR’s Written Response to the Draft Report




USDA/OIG/A 60801-3-Hq                                   Page 55
Exhibit E – CR’s Written Response to the Draft Report




USDA/OIG/A 60801-3-Hq                                   Page 56
Exhibit E – CR’s Written Response to the Draft Report




USDA/OIG/A 60801-3-Hq                                   Page 57
Exhibit E – CR’s Written Response to the Draft Report




USDA/OIG/A 60801-3-Hq                                   Page 58
Exhibit E – CR’s Written Response to the Draft Report




USDA/OIG/A 60801-3-Hq                                   Page 59
Exhibit E – CR’s Written Response to the Draft Report




USDA/OIG/A 60801-3-Hq                                   Page 60
